<html>
<title> - COMBATING TERRORISM: FEDERAL RESPONSE TO A BIOLOGICAL WEAPONS ATTACK</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  COMBATING TERRORISM: FEDERAL RESPONSE TO A BIOLOGICAL WEAPONS ATTACK
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2001

                               __________

                           Serial No. 107-99

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform




                       U. S. GOVERNMENT PRINTING OFFICE
81-593                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Jr., Tennessee           (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2001....................................     1
Statement of:
    Hamre, Dr. John, president and chief executive officer, 
      Center for Strategic and International Studies; Frank 
      Keating, Governor of Oklahoma; Hon. Sam Nunn, chairman and 
      chief executive officer, Nuclear Threat Initiative, and 
      former Senator; Dr. Margaret Hamburg, vice president, 
      Biological Programs for the Nuclear Threat Initiative; 
      Jerome Hauer, managing director, Kroll Associates; and Dr. 
      D.A. Henderson, director, Johns Hopkins Center for 
      Bioterrorism Prevention....................................     3
    Harrison, Major General Ronald O., the adjutant general of 
      Florida; Major General William A. Cugno, the adjutant 
      general of Connecticut, accompanied by Major General Fred 
      Reese; Dr. James Hughes, Director, National Center for 
      Infectious Diseases, Centers for Disease Control and 
      Prevention, accompanied by Dr. James LeDuc, Acting 
      Director, Division of Viral and Rickettsial Diseases, 
      Director, National Center for Infectious Diseases; Dr. 
      Patricia Quinlisk, medical director and State 
      epidemiologist, Iowa Department of Public Health and former 
      president, Council and Territorial Epidemiologists; and Dr. 
      Jeffrey Duchin, Chief, Communicable Disease Control, 
      Epidemiology and Immunization Section, Public Health, 
      Seattle and King County, WA................................    86
Letters, statements, etc., submitted for the record by:
    Cugno, Major General William A., the adjutant general of 
      Connecticut, prepared statement of.........................   102
    Duchin, Dr. Jeffrey, Chief, Communicable Disease Control, 
      Epidemiology and Immunization Section, Public Health, 
      Seattle and King County, WA, prepared statement of.........   137
    Hamburg, Dr. Margaret, vice president, Biological Programs 
      for the Nuclear Threat Initiative, prepared statement of...    62
    Hamre, Dr. John, president and chief executive officer, 
      Center for Strategic and International Studies, prepared 
      statement of...............................................    33
    Harrison, Major General Ronald O., the adjutant general of 
      Florida, prepared statement of.............................    90
    Hauer, Jerome, managing director, Kroll Associates, prepared 
      statement of...............................................    56
    Hughes, Dr. James, Director, National Center for Infectious 
      Diseases, Centers for Disease Control and Prevention, 
      prepared statement of......................................   110
    Keating, Frank, Governor of Oklahoma, prepared statement of..    16
    Nunn, Hon. Sam, chairman and chief executive officer, Nuclear 
      Threat Initiative, and former Senator, prepared statement 
      of.........................................................    26
    Quinlisk, Dr. Patricia, medical director and State 
      epidemiologist, Iowa Department of Public Health and former 
      president, Council and Territorial Epidemiologists, 
      prepared statement of......................................   127
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, publication entitled, ``National 
      Security Roles for the National Guard''....................   146


  COMBATING TERRORISM: FEDERAL RESPONSE TO A BIOLOGICAL WEAPONS ATTACK

                              ----------                              


                         MONDAY, JULY 23, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Gilman, Schrock, 
Kucinich, and Tierney.
    Staff present: Lawrence Halloran, staff director/counsel; 
R. Nicholas Palarino, senior policy analyst; Robert A. Newman 
and Thomas Costa, professional staff members; Jason Chung, 
clerk; David Rapallo, minority counsel; and Ellen Rayner, 
minority chief clerk.
    Mr. Shays. I would like to call this hearing to order and 
welcome our witnesses and guests.
    A word of caution: Some of what we are about to see and 
hear is not for the squeamish, but the frightening little 
sickening impact of a large scale biological weapons attack on 
the United States has to be confronted on its own terms. Better 
to be scared by the improbable possibility than to be 
unprepared for the catastrophic reality.
    The focus of our hearing today is a recent terrorism 
response exercise ominously named Dark Winter, during which the 
unimaginable had to be imagined, a multi-site smallpox attack 
on an unvaccinated American populace.
    The scenario called upon those playing the President, the 
National Security Council, and State officials to deal with the 
crippling consequences of what quickly became a massive public 
health and national security crisis.
    The lessons of Dark Winter add to the growing body of 
strategic and tactical information needed to support 
coordinated counterterrorism policies and programs. Coming to 
grips with the needs of first responders, the role of the 
Governors, use of the National Guard, and the thresholds for 
Federal intervention in realistic exercises vastly increases 
our chances of responding effectively when the unthinkable but 
some say inevitable outbreak is upon us. The costs of an 
uncoordinated, ineffective response will be paid in human 
lives, civil disorder, loss of civil liberties and economic 
disruption that could undermine both national security and even 
national sovereignty.
    If there is a ray of hope shining through Dark Winter, it 
is sparked by this irony. Improving the public health 
infrastructure against a man-made biological assault today 
better prepares us to face natural disease outbreaks every day. 
Just as biotechnologies can be used to produce both lifesaving 
therapies and deadly pathogens, public health capabilities are 
likewise dual use, enhancing our protection against smallpox 
attacks by a terrorist and an influenza epidemic produced by 
mother nature.
    Let me welcome and thank our most distinguished witnesses 
this afternoon. Our first panel consists of key partners in the 
Dark Winter exercise. We look forward to testimony from 
Oklahoma Governor Frank Keating, former Senator Sam Nunn, and 
their colleagues describing the critical path of decisionmaking 
during a spreading public health and public safety crisis.
    Witnesses on our second panel will address the important 
role of the National Guard and public health personnel in a 
bilateralism response.
    Like politics, all disasters are local, at least initially. 
State military units and public health professionals, among 
others, man the first line of defense against the consequences 
of a biological attack. Their perspective is important, and we 
appreciate the time, talent and dedication they bring to our 
discussion this afternoon.
    I would like to recognize our first panel, the Honorable 
Frank Keating, Governor of Oklahoma; the Honorable Sam Nunn, 
chairman and chief executive officer, Nuclear Threat 
Initiative, and former Senator; Dr. John Hamre, president and 
chief executive officer, Center for Strategic International 
Studies; Dr. Margaret Hamburg, vice-president, biological 
programs for the Nuclear Threat Initiative; and Mr. Jerome 
Hauer, managing director, Kroll Associates.
    I think, as you know, it is our practice to administer the 
oath in this committee, and I just invite you all to stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you very much. Now, I was thinking, we 
have sworn in everyone in my entire 7 years as chairman except 
one person, Senator Byrd. I chickened out, Senator Nunn, when 
Senator Byrd came in. But I realize that it is both an honor to 
testify, I think, on this important issue and others, and I 
appreciate your being willing to be sworn in.
    At this time, we will start with you, Governor Keating, and 
then--I am sorry, we have--you are in charge.

  STATEMENTS OF DR. JOHN HAMRE, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES; FRANK 
  KEATING, GOVERNOR OF OKLAHOMA; HON. SAM NUNN, CHAIRMAN AND 
CHIEF EXECUTIVE OFFICER, NUCLEAR THREAT INITIATIVE, AND FORMER 
   SENATOR; DR. MARGARET HAMBURG, VICE PRESIDENT, BIOLOGICAL 
   PROGRAMS FOR THE NUCLEAR THREAT INITIATIVE; JEROME HAUER, 
 MANAGING DIRECTOR, KROLL ASSOCIATES; AND DR. D.A. HENDERSON, 
   DIRECTOR, JOHNS HOPKINS CENTER FOR BIOTERRORISM PREVENTION

    Mr. Hamre. No, I am not in charge. I am just trying to stay 
ahead of this bunch. That is all I'm trying to do.
    Mr. Shays. Well, as far as I am concerned, you have the 
floor, so you are in charge.
    Mr. Hamre. Thank you. It is a real privilege. And my role 
here today is really simply to summarize enough of the exercise 
so that you feel you could sit in today back in the chair--when 
we met about a month ago and what was going on in everybody's 
head so you can appreciate the very powerful message, and if I 
can ask us to go the----
    Mr. Shays. Now, I understand there may be some graphic 
display here.
    Mr. Hamre. Sir, there will be graphics as well as some 
video. This will be shown on these side monitors.
    Mr. Shays. I'm told that some of it is not pleasant.
    Mr. Hamre. It is not pleasant. Let me also emphasize, sir, 
this is a simulation. This had frightening qualities of being 
real, as a matter of fact too real. And because we have 
television cameras here broadcasting, we want to tell everyone, 
this did not happen, it was a simulation.
    But, it had such realism, and we are going to try to show 
you the sense of realism that came from that today.
    Why don't we go to the next chart, if I may, please.
    Well, we are--if I could, while we are waiting. Let me just 
introduce and say that there were three institutions that 
collaborated on this project, the Center for Strategic and 
International Studies, the Johns Hopkins Center for 
Bioterrorism Prevention that Dr. D.A. Henderson, who is sitting 
here--Dr. Henderson, you should know as well, is one man that 
is probably more responsible for eradicating smallpox than any 
other person in America. And he is now----
    Mr. Shays. Would you raise your hand, sir? You are the 
gentleman?
    Mr. Hamre. He is dedicating himself now to the protection 
of the United States against these terrible diseases.
    The other is the ANSER Corp. Dr. Ruth David is the 
president and CEO, and she was instrumental in bringing 
together so much of the resources, she and her remarkable 
staff. And we are ready to go.
    Let me say, Dark Winter was meant to be an exercise to see 
how would the United States cope with a catastrophic event, in 
this case a bioterrorism event. We thought that we were going 
to be spending our time with the mechanisms of government. We 
ended up spending our time saying, how do we save democracy in 
America? Because it is that serious, and it is that big.
    Let's go to the next chart, please. This is what we will 
cover today. We will go briefly through just to say who are the 
participants and the goals of the exercise, and then we also 
want--quickly want to take you through the exercise itself so 
that you have a chance to observe it.
    We will then pull out some of the key observations, and all 
of my colleagues here will be speaking to those along the way.
    Next chart, please.
    Mr. Shays. Dr. Hamre, may I just interrupt to welcome Mr. 
Tierney, who is here.
    Mr. Tierney. Sorry for the interruption.
    Mr. Shays. Great to have you here. Would you just make your 
first point again?
    Mr. Hamre. I said, Mr. Tierney, we were delighted to be 
invited to be participants here. We thought that we were going 
to be getting together as a group. Everyone who was 
participating in this exercise were former government 
officials. Everybody had--that was the sitting at the National 
Security Council had really been there before in one role or 
another.
    And of course we had Governor Keating sitting as Governor 
Keating in the exercise. And we thought that we were really 
going to get together to talk about the mechanics of 
government. And what we ended up doing is saying, how do we 
save democracy in America if we ever have an episode like this 
that were to occur for real.
    Mr. Shays. I would also welcome Mr. Gilman as well. And I 
think what I will do, since they have come before you jumped 
right in, to give either an opportunity to have an opening 
statement, and then we will get right to your testimony.
    Do you have any statement?
    Mr. Tierney. No. I am happy to hear the testimony. Thank 
you.
    Mr. Shays. Mr. Gilman, do you have any statement?
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you 
for conducting this hearing at this time. Today's hearing to 
examine our overall relationship between the Federal and State 
governments in trying to form a cohesive and effective response 
to a biological weapons attack is very timely.
    For many years the possibility of a bioterrorist attack 
occurring in our own Nation seemed absurd, something to be 
relegated to the realm of science fiction. Sadly, events over 
the last few years, with bombings occurring in New York, 
Oklahoma City, have transformed the bioterrorism debate from a 
question of if, to the seeming inevitably of when.
    The task of developing an adequate, effective, overall 
strategy to successfully counter any domestic act of 
bioterrorism has proven to be a difficult challenge for Federal 
and State policymakers.
    Our Nation is a highly mobile society with a system of 
government wherein power and responsibility are diffused 
between Federal, State and local authorities. Moreover, the 
American people are accustomed to an unprecedented amount of 
personal freedom not found in any other nation.
    All of these factors make the quick containment of any 
biological attack and effective subsequent quarantining of any 
affected individuals highly problematic. Indeed, primary 
results from the past exercises, including one recently 
concluded, have not been very encouraging.
    I look forward to the testimony that our panelists will be 
presenting, and particularly those who participated in the 
recently held Dark Winter exercise. I am certain that their 
experience and insight will prove useful to this committee as 
Congress works to try to find a proper role in this emerging 
and vexing problem.
    Once again, Mr. Chairman, thank you for your leadership on 
this important topic.
    Mr. Shays. Thank you both, gentlemen, for being here. Dr. 
Hamre, let me just take care of--a quorum is present. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, and 
without objection, so ordered. And also ask further unanimous 
consent that all witnesses be permitted to include their 
written statements in the record. Without objection, so 
ordered. And 3 days for both.
    You now truly have the floor. Do you want us to dim the 
lights? I am afraid to ask. I don't know if we know how to do 
that.
    Mr. Hamre. I leave it up to your professional staff that 
has a better feel. I think that we can see it.
    Mr. Shays. We'll light it.
    Mr. Hamre. I also forgot to mention that this exercise, 
because all of us are not-for-profit entities, was funded by 
two entities. It is very important for me to say this. This was 
not paid for by a contractor. This was not paid for by the 
Government. This was paid for by two not-for-profit entities 
that are dedicating themselves to helping protect America, the 
McCormick Tribune Foundation and the Memorial Institute for the 
Prevention of Terrorism in Oklahoma City.
    Mr. Shays. Not to confuse you, there is a screen in front 
of the desk. So we are not looking at Governor Keating and 
Senator Nunn while you are showing your presentation. It is 
right in front of you.
    Mr. Hamre. Yes, sir. OK. So now we will proceed, if we 
could, to the next one.
    These are the participants, and I won't go through it here. 
Everybody that we had sitting there has been in the National 
Security Council for real.
    Next chart, please. And we also, to add additional realism 
to this exercise, we actually brought in sitting journalists. 
They actually sat there to watch and participate, because a 
fair amount of this exercise dealt with how we would cope with 
a public campaign and explain it to the American public.
    Next chart, please.
    These are the five goals that we had for the exercise. This 
is what we were trying to do. We were trying to figure out what 
was going to be the impact on national security of a biological 
attack.
    We especially wanted to look at the implications for 
Federal and State interactions, and this turned out to be one 
of the most important elements for us to learn. And we will 
bring some of this out in the lessons learned later on. But I 
must tell you that there was a major divide in this National 
Security Council between those who are at the national level 
and those who understood the response at the State level, and 
we should talk about that later.
    We were especially looking at what does it take to make 
these life or death decisions when we don't have enough money 
for what it really takes to do it, and coping with a scarcity 
of assets, and especially vaccines, was a major dimension of 
the exercise. We tried to deal with the issue of information, 
how do you communicate to the American public at a time of 
extreme crisis, and then finally to talking about the very 
tough ethical and moral issues that came from this exercise.
    Let's go to the next chart. And I think this is going to 
get to you to the beginning of this, the way that we 
experienced it.
    [Video played.]
    Mr. Hamre. So when the National Security Council met this 
evening, the first night of our exercise, they thought they 
were getting together to talk about a crisis that was emerging 
between the United States and Iraq, because we have learned of 
this breaking news of a potential smallpox attack.
    The President called the National Security Council 
together. Fortunately, Governor Keating, who was in town 
anyway, joined us for the exercise and of course for explaining 
his presence, he would normally be at an NSC meeting, but he 
was there that evening.
    Let's go to the next chart, please. This is what happened 
on the first day. This is what the NSC was learning that night. 
What we were looking at--this is around December 9th--some two 
dozen patients were reporting into Oklahoma City hospitals with 
signs of smallpox. It was quickly spreading around the town, 
and indeed the Centers for Disease Control quickly confirmed 
that it was indeed smallpox.
    Next chart, please. Smallpox was eradicated in the United 
States in 1978--we have not had any evidence of it or at least 
in--in 1949 is when it was last in the United States, but it 
was eradicated 30 years ago. It is a very contagious disease 
and highly lethal; 30 percent of the people that get it will 
die. And once you get it, you simply have to ride it out. There 
is no real therapy for it. There is a vaccine that you can 
take, but you must get the vaccine before you have demonstrated 
symptoms. So it is a very tough problem to work with.
    Let's go to the next chart, please. These are historical 
pictures of smallpox. Smallpox was the leading cause of 
blindness in the world before its eradication. It is a very 
ugly disease. This is, of course, in the more advanced stages 
where smallpox, after the first week or so, starts forming 
these pox. It is very ugly. It is at this stage where it is 
highly contagious.
    Next chart, please. The United States has approximately 12 
million effective doses of vaccine that are available. It is 
possible to administer the vaccine, but you must administer it 
before you demonstrate symptoms if it is going to be effective.
    In this case, we thought we had 12 million doses, but as 
you will see shortly, its exposure in this exercise was in 
communities where there were more than 12 million people 
living.
    The National Security Council, one of its initial 
challenges was to decide how do we administer or strategically 
how do we allocate these scarce numbers of doses to the 
American public?
    Next chart, please. Here is what the National Security 
Council knew at the time. Again it is very--I am trying to 
compress into 3 minutes what was taking 4 hours in discussion.
    We clearly knew that smallpox was now being reported in 
three States. It was reported in Oklahoma, in Atlanta and in 
Pennsylvania. It was presumed to be a deliberate release, 
because smallpox is no longer natural in the environment, and 
so it was probably caused, but we did not know how.
    We did know that vaccination is a source of--is one of the 
tools, but the other tool is isolation, trying to prevent the 
spread of the disease. We also knew at the time that Iraqi 
forces were mobilizing. We did not know if these were related 
phenomena, if it was at the same time being connected to the 
deployment in the Persian Gulf.
    We also did not have any smoking gun. We did not know who 
caused it, and we had no idea where it came from. The other 
thing we did not know, which was very crucial, is we had no 
idea how extensive the attack was when it was unfolding.
    So that first night, and we met on a Friday night, 
simulating the first day of the exercise, we were really 
dealing with a lot of scientific information, very little 
insight into what to do about it, because we did not know where 
it had been spread and how extensive the illness was already.
    Next chart, please. These were the key issues that we were 
looking at that first night; you know, who controls the release 
of vaccine, how do you administer vaccine, who should be 
getting it? How do you protect the first responders, because 
you need the first responders. Who is on the front line.
    I can remember Senator Nunn saying, who is on the front 
line? We had national security people saying we have to reserve 
doses for the military, and we had State and local responders 
saying we are the front line in this war. You have got to save 
us. You have got to protect us first. So it was a major debate.
    So this--let's go to the next chart, please.
    Now, we are going to show you a video from that first 
evening as well.
    [Video played.]
    Mr. Hamre. Through the exercise we were introducing videos 
along the way to give some sense of realism to the evening. 
Now, let me--OK. Let's go the next chart if we could, please.
    Here is what the Council decided on the first night. They 
decided to try to accelerate the production of vaccines. There 
is ongoing production, but emergency production would be 
required, and you would need to waive a fair amount of 
regulation. If this happened tomorrow, we would have to waive a 
fair amount of Federal regulation in order to get vaccines 
available on an expedited basis. That even meant 6 to 8 weeks 
before we could get it.
    We asked the Secretary of State to look for vaccines in 
other countries. As it turns out, Russia had stocks, but there 
was a question about the safety and effectiveness of those 
stocks. So that was an issue that the Council had to deal with.
    The National Security Council ordered a ring strategy: Try 
to find people that have been affected and then inoculate the 
people that are in, as it were, a circle of acquaintances 
around the individual who had been infected, one of the classic 
strategies for dealing with a contagious disease.
    We also directed--they directed that stocks be reserved for 
first responders. Because if you are expecting to see health 
delivery and security in infected areas, you have to reassure 
the people that have to provide that security with a vaccine, 
or else they probably aren't going to do it, and you wouldn't 
expect them to.
    And finally they did reserve stocks for emergency break-
outs, if there were any further break-outs to occur.
    Now, let's go to the next chart. Here is what was not 
understood at the time of that first evening, is that the game 
participants really never could see the full scope of the 
initial attack because they didn't know the facts yet. They 
weren't yet in.
    The--that indeed the infection rate was showing up first in 
the cities where you had--where it was released, and they were 
released in three locations. Deliberate attack in Oklahoma, 
where it was successful, and two botched attempts, one in 
Atlanta and one in Philadelphia.
    The participants did not know that at the time of the first 
evening. So this was the scope of the infection that was not 
even understood when people were having to make initial 
decisions. This would be very typical of a bioterrorism 
incident.
    Next chart, please.
    The priority was given, you know, for vaccinations and 
isolation. The stocks were very inadequate given the scope of 
the initial attack. Again, we didn't realize that until the 
next day. But it was one of those things that was unavoidable, 
and very difficult to get situational awareness, to know what 
is really going on.
    If there were one or two people that showed up in another 
State, was that another source of an attack or was that just a 
pattern of peoples' normal commerce? Remember, this occurred in 
the scenario at the start of the shopping season before the 
Christmas holidays. It occurred in a shopping center. And that 
is why you don't know if it was a single point event or if was 
widespread----
    Senator Nunn. Let me add a point or emphasize this, a point 
of emphasis there. If we had known for certain or even 
speculated with some reasonable basis that there was a certain 
area we could have isolated, then obviously whatever you needed 
to do should have been done right at the beginning: Isolating 
Oklahoma City, isolating parts of Georgia, whatever.
    But there was no clarity. We kept asking, do we know that 
it hasn't already spread all over? And the answer was, it could 
have spread everywhere, because we didn't know for 10 or 12 
days that it had even happened.
    And those people that were in those shopping centers had 
dispersed in all directions. So when you start basically 
impinging on their civil liberties and telling people they 
forcefully have to be kept in their homes that may have been 
exposed, and when you call out the National Guard to do that, 
and you at gunpoint put your own citizens under, in effect, 
house arrest, and you don't even know that you are catching the 
right spot or that you're dealing with the right people, it is 
a terrible dilemma.
    Because you know that your vaccine is going to give out, 
and you know the only other strategy is isolation, but you 
don't know who to isolate. That is the horror of this 
situation. I just wanted to emphasize that as a point of 
emphasis.
    Mr. Gilman. Mr. Chairman, would you yield a moment?
    How do you learn the extent of that kind of an outbreak? I 
address that to Senator Nunn.
    Senator Nunn. I think that Dr. Hamburg would probably be 
the best one to answer that. I think an answer that night in 
our exercise was we really could not.
    Dr. Hamburg. You would immediately begin as you identify 
cases to put together the pieces that are common in the recent 
experience of the individuals who are sick and begin to do an 
outbreak investigation where you can trace back to what was the 
source of exposure, the common source of exposure.
    And in a case like this, although we obviously didn't have 
the opportunity to play all of the elements fully, that kind of 
outbreak investigation would have been intensively going 
forward, requiring a huge investment of trained personnel, 
epidemiologists to do that medical detective work.
    At the same time, since the suspicion was so high that this 
was a bioterrorist event, we would also be having to have a law 
enforcement criminal investigation going on at the same time 
and trying to trace back to the site of exposure, which would 
also be your best chance of identifying the possible 
perpetrator as well.
    Senator Nunn. One other point on this, right on that point. 
You have got an inherent conflict between health and law 
enforcement. And to the extent that they haven't coordinated 
beforehand and don't know each other beforehand, before this 
occurrence took place, you would have a horror show, because 
law enforcement has one set of goals, health officials have 
another set of goals. The President of the United States, and 
Governor Keating in this case of Oklahoma, and the other 
Governors would have to make a threshold decision which was 
more important.
    I made the decision it was health rather than law 
enforcement. But that drives an awful lot of decisions. If you 
don't have any advanced coordination between health and law 
enforcement, you have got a huge problem. And the same thing 
would be the case with health and National Guard and health and 
the military. And the same thing between the whole Federal, 
State, local governments. So that is a real dilemma.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Hamre. Let's go to the next chart there.
    [Video played.]
    Mr. Hamre. Let me again, Mr. Chairman, say this, that this 
was a simulation, for people that may just be joining us. This 
is not real, but this was something that we were simulating in 
an exercise.
    Mr. Shays. Still chilling.
    Mr. Hamre. Here is again what the National Security Council 
knew. This was the beginning of the next morning. Basically we 
advanced the clock. We were now at the 6th day in the exercise. 
Here is what the National Security Council was confronting, 
that they had--over 2,000 people had been infected. The medical 
care system had been overwhelmed.
    You know, we have cut back medical care so that it is to 
the least amount of excess capacity in peacetime as possible, 
because we can't afford it. And of course when you have a 
catastrophic event like this, it overwhelms the medical care 
system very quickly for all practical purposes. Vaccine is now 
gone, because you are trying to contain it in each location. It 
is now in over 20 States, we are out of vaccine.
    Still the Council does not know where it came from or how 
widespread it is. It is clear that it was probably deliberate, 
but it is unclear if this was terrorism or really an act of 
war.
    Let's go to the next chart, please.
    [Video played.]
    Mr. Hamre. Next chart, please.
    Let me emphasize that this was not a game where there was a 
right answer or a wrong answer. I mean, this is a case where 
none of us were experiencing anything that we had ever lived 
through before. So the National Security Council was coping 
with very stressful situations, so please don't judge them as 
to the decisions that they made. There is no right answer here, 
we are all learning.
    At the time the participants came to realize that it's 
now--that vaccine was no longer going to be an effective 
solution. We were out of it. And we now had to deal with the 
issues of how do you constrain it by constraining peoples' 
movement and behavior.
    There was a major debate inside the National Security 
Council at the time between the National Security side and the 
local response side as to whether or not we should Federalize 
the National Guard.
    Let me ask Governor Keating to jump and speak to the issue 
from a Governor who is sitting there, what he was confronting 
when we had the debate in Washington over whether we should 
Federalize the Guard.
    Governor Keating. Well, I certainly wasn't very happy about 
what those pesky Texans did to my border. But the problem 
Senator Nunn said was the level of information that we had, and 
the expectation of local decisionmaking and local response.
    I might say that the one thing that we didn't have, because 
that is the nature of the beast, was information. The first 
question that was asked by us was, what is smallpox? And what 
is the cure? And are there vaccines? And what do we do?
    Well, for me as a Governor hearing this information, 
suggested by the President, that we encourage people to remain 
in their homes, that we encourage little, if any, transit 
between population centers, I made a decision to close the 
airports except for supplies of medical equipment and 
personnel, also the roads except for supplies of medical 
equipment, personnel and food and other essential items 
provided the truckers are vaccinated. That was an ad hoc 
decision on my part.
    One of the generals at the table--this is why there was no 
script whatsoever, Mr. Chairman, except the first comment that 
was made right at the outset. Somebody said, what authority do 
you have to do that? And I said, because I am the Governor of 
my State. I am going to do it because this is how I think I 
should respond to a calamity such as this.
    The most important thing that we needed was information. 
And obviously once that information was imparted, provided it 
is able to be relied upon and it is firm and final, then 
suggestions from the Federal family as to what assets and 
resources would be available.
    In our Federal system, with such diffuse decisionmaking, 
that is crucial. What are the facts? What is the answer? What 
are the resources that should--must be made available to 
address it?
    And obviously the comity, the information that must exist 
between the Federal family and the State and local family was 
essential. I was basically the skunk at the garden party. I 
raised the issues of the need for bottom-up responses as 
opposed to top-down responses. And sometimes I won, sometimes I 
lost. But the President did an outstanding job of making sure 
that I won as many times as I lost.
    Senator Nunn. One added note on the Governor's comment. 
When the Texas Governor--we were told the Texas Governor had 
nationalized the Texas Guard and blocked the border from 
Oklahoma. Well, obviously if other States around Oklahoma had 
done the same thing, they would have been isolated, you 
couldn't have gotten food, water, whatever they might have 
needed in emergencies in there.
    It had the possible result of being an absolute, total 
disaster. All of my National Security Advisers, Secretary of 
the Defense, and the whole team of National Security Advisers 
sitting around the table advised me as President to nationalize 
the Texas Guard, thereby overruling the Texas Governor.
    That was a hard decision, but I decided not to do it. I 
decided to get the Governor who happened to be there, but in 
case if he hadn't been there, I would have gotten someone else, 
or I might have called myself to try to plead with the Texas 
Governor not to do that, not to have that kind of force.
    But I judged that if I tried to nationalize a Guard force 
that had been mobilized by their Governor to protect the 
citizens of their State, in their eyes, and to protect their 
own families, the worst of all worlds might be that they 
basically wouldn't respond to Federal authority and then you 
would have had pure anarchy. And I felt that the threshold 
decision had to be made that this had to be a partnership, and 
we had to go to every length to try to convince the Governor of 
Texas to cooperate.
    So that was the way that one was playing out. And of 
course, Governor Keating, I kept sending him out of the room to 
go to talk to the Governor of Texas during this whole time.
    So that probably wasn't exactly realistic, but I would have 
been, had he not been there, on the phone with the Governor of 
Texas myself.
    Governor Keating. Let me postscript what Senator Nunn said. 
The challenge for me, having survived both a natural as well as 
a man-made tragedy in my State, was to convince the Federal 
family around that table that the best response was in fact a 
local response, that the local people trusted the police chief 
and the fire chief and the health officials locally. They 
didn't know who these Federal people were. What we needed from 
the Federal Government, from FEMA particularly, were the assets 
and the assistance and, as Dr. Hamburg noticed, the facts to 
permit us to respond in an intelligent and in a factual way.
    We got into a--I got into somewhat of a--a friendly but 
firm dialog with the military, who were--whose initial response 
was, find out who did it and bomb them. Well, I don't have a 
problem with responding forcefully as an American to anybody 
who would do this to our States or our country.
    But our challenge, and that is why I commend Senator Nunn 
as President, his challenge, which he accepted, was to focus on 
rescue and recovery and medical care and quarantine and 
isolation and the health side, and we will take care of the bad 
guys later.
    And I think that is something that obviously leadership 
alone will make that decision. That would not happen by 
accident, and in this case he responded properly.
    Senator Nunn. I do believe there are a lot of lessons to be 
learned. I will just inject here one on this point. But it was 
apparent to me that we needed a large group of nurses and 
doctors, and we needed to bring them in from all over the 
country and indeed perhaps all over the world.
    The only way you can do that is probably advanced planning. 
Also the question in my mind, I am not up to date on everything 
the National Guard is doing in this area, but it was also 
apparent to me, and the more I thought about it afterwards the 
more apparent it has become, that our National Guard forces 
need to be able to mobilize all of the reserve medical doctors 
that they can possibly get, whether it is Guard doctors or 
Reserve doctors, and even active duty officers who have medical 
knowledge.
    And we need to have some advanced planning on that. It 
wouldn't just be the Guard forces with their, you know, with 
their guns and with their ability to protect property and so 
forth. We would need all of the medical expertise that we can 
possible muster.
    And the public health system and the Public Health Service 
would have to be at the heart of that. I believe you said in 
the beginning, Mr. Chairman, and I want to strongly underscore 
your point, because I believe that we really need to pay a lot 
more attention to our public health system. That is the case 
even if we don't have a terrorist outbreak. That is the case 
with just natural infectious disease.
    Governor Keating. And as a response to that need for a 
coordinated mechanism it was for me, representing the State and 
local authorities, to say, don't forget the National Guard best 
responds to local oversight and control. Don't forget the 
Salvation Army. Don't forget the local health officials. Don't 
forget the American Red Cross. Don't forget the churches and 
the social services agencies who must be coordinated into this 
health care response as well. You can't have any success unless 
they are integrated fully in it.
    Senator Nunn. But one final possibility, we'll get back to 
the scenario, every one of those people you are trying to 
mobilize is going to have to be vaccinated. You can't expect 
them to go in there and expose themselves and their family to 
smallpox or any other deadly disease without vaccinations.
    So that is the front line. That is the front line more than 
any purely military force. You have got to vaccinate them and 
you have got to have that right at the beginning, and that kind 
of supply needs to be set aside.
    Mr. Hamre. Mr. Chairman, we are now at the end of the 6th 
day. And so let me now go to the next chart.
    [Video played.]
    Mr. Hamre. Next chart, please. This is the beginning now of 
the third phase of our exercise. It was on the 12th day of the 
scenario. The most important thing is the second bullet. 
Remember, this is--smallpox is so dangerous, because it is 
communicable. And every one person who gets it probably is 
going to infect 10 more.
    Now is the first time that we are starting to see the 
second wave of infections. That is the infections of people 
that came in that caught from people who were exposed in the 
very first hour.
    As you can see, in the last 48 hours there were 14,000 
cases. We now have over 1,000 dead, another 5,000 that we 
expected to be dead within weeks. There are 200 people who died 
from the vaccination, because there is a small percentage, and 
we have administered 12 million doses, but now we have 200 that 
died from the vaccine. At this stage the medical system is 
overwhelmed completely.
    Next chart, please. This was what the members of the 
National Security Council saw. They saw this spread. You see 
the three red zones. Those are where the initial attack took 
place in Oklahoma, in Atlanta and in Pennsylvania. The Oklahoma 
attack was successful. But, as you can see, it spreads widely.
    Anyway, next chart, please.
    These are the cumulative--the results of the cumulative 
compounding of the people that have been infected. You see the 
cases per day, and you will see it starting to rise at day 18 
and starting to go up sharply. That is the second wave of 
infections, people that are catching it from the people who 
were first infected.
    Next chart, please. And this unfortunately was what the 
National Security Council was looking at. For people that may 
not be able to see that in the back of the room, at the end of 
the first generation of infections, this is approximately 
December 17th, there were 3,000 infected, and there were 1,000 
expected to be dead.
    At the end of the second generation, what we were now 
looking at, it would be 30,000 infected, and 10,000 dead. We 
were forecasting within 2 weeks to 3 weeks that we would have 
300,000 who would be infected and 100,000 dead. As you can see, 
it goes off the charts.
    It was roughly by the fourth generation that we would 
expect to be getting vaccine produced in the emergency 
production.
    Next chart, please.
    [Video played.]
    Mr. Hamre. It was at this stage that we were confronting 
the reality that forcible constraint of citizens' behavior was 
probably going to be required to be able to stop that fourth 
generation of infections.
    Let's go to the next chart, please.
    We'll talk very briefly about lessons learned.
    Next chart, please. I think we felt that this would cripple 
the United States if it were to occur. We have a population 
that is no longer inoculated.
    For all practical purposes, 80 percent of the population 
has been born or is no longer affected by the vaccines when 
they stopped back in 1978. So the country is now vulnerable. 
Local attack quickly becomes a national crisis, and we saw that 
very quickly once it spread.
    The government response becomes very problematic when it 
comes to civil liberties. How do you protect democracy at the 
same time that you are trying to save the Nation?
    Next chart, please.
    We found that it was very hard--we are not very well 
equipped to deal with the consequences. I am going ask Jerry 
Hauer to comment on that when we get around to comments later 
on. We lack the stockpiles of vaccine. I'll ask Peggy Hamburg 
to briefly speak to that, because this is one of the key 
things.
    We had 12 million doses, but it is clear that 12 million 
doses aren't going to be enough if we get into this kind of 
crisis. It is very likely that you are going to have to change 
peoples' behavior. How? That becomes a key question.
    Next chart, please.
    We didn't have the strategy at the table on how to deal 
with this, because we have never thought our way through it 
before, and systematically thinking our way through this kind 
of a crisis is now going to become a key imperative.
    It clearly is going to require many more exercises. The 
government is going to have to--and we are very pleased that 
the person who for--Governor Thompson is going to be the 
Coordinator for Bioterrorism Response. Scott Littlebridge was 
with us at the exercise.
    It is now very clear that public health is a national 
security imperative. This is not a choice, this is now an 
imperative.
    Next chart, please.
    We found that State and local resources were going to be--
relations, I should say, are going to be hugely strained at 
this time. The perception in Washington is so different from 
the perception in the field. That is something that I hope that 
Governor Keating and Senator Nunn speak to.
    When I say government lacks coherent decisionmaking, this 
is not a critique of the exercise. I thought it was the finest 
national security discussion I had ever seen, and I have been 
through about a dozen of them. It was by far and away the best 
that I have ever seen. But it still is very hard to cope with 
something that you have never experienced before ever, and we 
are going to have to start doing exercises. Hopefully that is 
as close as we'll ever get to it.
    And finally it is going to take an investment. It is going 
to take an investment in public health, it is going take an 
investment in research and development. We have got to find 
some solution to this problem. I think that concludes, Mr. 
Chairman.
    Let me turn it to my colleagues, I think, because they had 
important observations before we wrap up and turn it to you for 
questions.
    [The prepared statements of Mr. Keating, Hon. Sam Nunn, and 
Dr. Hamre follow:]
[GRAPHIC] [TIFF OMITTED] 81593.001

[GRAPHIC] [TIFF OMITTED] 81593.002

[GRAPHIC] [TIFF OMITTED] 81593.003

[GRAPHIC] [TIFF OMITTED] 81593.004

[GRAPHIC] [TIFF OMITTED] 81593.005

[GRAPHIC] [TIFF OMITTED] 81593.006

[GRAPHIC] [TIFF OMITTED] 81593.007

[GRAPHIC] [TIFF OMITTED] 81593.008

[GRAPHIC] [TIFF OMITTED] 81593.009

[GRAPHIC] [TIFF OMITTED] 81593.010

[GRAPHIC] [TIFF OMITTED] 81593.011

[GRAPHIC] [TIFF OMITTED] 81593.012

[GRAPHIC] [TIFF OMITTED] 81593.013

[GRAPHIC] [TIFF OMITTED] 81593.014

[GRAPHIC] [TIFF OMITTED] 81593.015

[GRAPHIC] [TIFF OMITTED] 81593.016

[GRAPHIC] [TIFF OMITTED] 81593.017

[GRAPHIC] [TIFF OMITTED] 81593.018

[GRAPHIC] [TIFF OMITTED] 81593.019

[GRAPHIC] [TIFF OMITTED] 81593.020

[GRAPHIC] [TIFF OMITTED] 81593.021

[GRAPHIC] [TIFF OMITTED] 81593.022

[GRAPHIC] [TIFF OMITTED] 81593.023

[GRAPHIC] [TIFF OMITTED] 81593.024

[GRAPHIC] [TIFF OMITTED] 81593.025

[GRAPHIC] [TIFF OMITTED] 81593.026

[GRAPHIC] [TIFF OMITTED] 81593.027

[GRAPHIC] [TIFF OMITTED] 81593.028

[GRAPHIC] [TIFF OMITTED] 81593.029

[GRAPHIC] [TIFF OMITTED] 81593.030

[GRAPHIC] [TIFF OMITTED] 81593.031

[GRAPHIC] [TIFF OMITTED] 81593.032

[GRAPHIC] [TIFF OMITTED] 81593.033

[GRAPHIC] [TIFF OMITTED] 81593.034

[GRAPHIC] [TIFF OMITTED] 81593.035

    Mr. Shays. Do you all--since I have already lost control of 
this--do you all have a sense of how you want to proceed?
    Mr. Hamre. I think we can just work down the table.
    Mr. Shays. Senator Nunn, you look like you're ready.
    Governor Keating. He is the President, so outranks a mere 
Governor.
    Mr. Shays. Mr. President, you have the floor.
    Senator Nunn. I lost control of the National Security 
Council during this whole exercise, too.
    It was two or three real frustrations. One is there was no 
intelligence, couldn't find any intelligence. We had no way to 
link these attacks with any foreign country. You know, your 
urge is to retaliate, but you have no idea who to retaliate 
against. That is the point that Governor Keating made.
    Second, you really know from the beginning, when you first 
hear about smallpox, the credibility of the U.S. Government is 
absolutely essential. And yet, when you are faced with your 
first news conference and you turn to your colleagues around 
the table and give me the information base, give me the basis 
on which I am going to speak to the American people, you know 
you need to be candid.
    You know you need to be as reasonably accurate, you know 
you need not to be reversed from what you said in 3 days. You 
have no information base, and yet you have got to reassure 
people and you have got to calm them down.
    That was one of the most frustrating things, and from that 
came the acute awareness that dealing with the media in one of 
these, if it becomes a reality in one of these real terrorist 
attacks or outbreaks of infectious disease which got out of 
control, dealing with the U.S. news media would be essential. 
They would have to be partners, because if you lost credibility 
and they basically started attacking the government you would 
have nothing but chaos.
    And so you certainly couldn't co-opt the media, and that 
means that you have got to have a lot of advanced preparation, 
you have got to know what you are talking about. You have got 
to have the best spokespeople that you can possibly have at the 
Federal, State and local level, and there has to be some 
coordination in advance.
    I think your most credible people would be your health 
officials. And I believe that the more I thought about this 
afterwards, the more essential it became, in my own mind, to 
have a whole group of health officials at every level who work 
together and who could speak to this subject with credibility, 
because I think if you tried to get law enforcement people out 
there talking about apprehending someone when people are faced 
with smallpox right next door, they really would say, that is 
not what I am worried about. I am worried about my family and 
my children.
    So those are a few things. But, we really need to be 
prepared. The government is not organized for this. We need to 
be structured for it. We need to think about it in advance. We 
need to do the best we can in terms of detection. I think we 
need a global health system that can detect at an early stage 
any infectious disease, because in the period of globalization 
when people are moving all over the world, if we don't have 
that early warning, whether it is from Africa or Asia, or 
whether it is Oklahoma City to the world, then we are not going 
to be able to get in front of this kind of episode.
    We need a whole lot more vaccine. We need to have an 
analysis from our people in the government what the threats 
really are and which threats are greatest.
    You can't prepare for every threat. But we have to have an 
array of threats as to which threat is greatest in terms of 
biological, then we have to weigh chemical and we have to weigh 
nuclear, we have to weigh missile defense, we have to weigh all 
of those threats in an analytical way, and I don't think we 
have done that yet.
    Because there is going to have to be some real money spent 
here if we are going to get a public health system. The market 
forces--and this is the other thing that the Governor and I 
were talking about earlier. The market forces in this country 
for health care are striving for more efficiency. That is what 
Congress has really tried to set up, and rightly so. But the 
more efficient you get, the less excess capacity you have. And 
when you get one of these outbreaks or an infectious disease 
outbreak, you have got to have excess capacity, you have got to 
have vaccine that may never be used. The marketplace is not 
going to provide that.
    The marketplace simply can't provide it. You can't ask the 
pharmaceutical company to go out and for free develop smallpox 
vaccine by the millions of doses when the likelihood of that 
happening is certainly not very great.
    And yet if you are not prepared, you are in real bad shape. 
So it is clearly a governmental area. And I think we need to 
use market forces wherever we can. But there are a lot of areas 
there that are going to work against efficiency, but toward the 
protection of public health. Most of all, I would underscore 
preparing and paying real attention to the public health system 
of the country.
    Mr. Shays. Mr. President, who do you want to recognize 
next?
    Senator Nunn. Well, during our scenario, the Governor never 
needed to be recognized. He really was just very assertive the 
whole time, and we really did enjoy having him there. I am not 
sure I would advise any President to have a Governor in the 
room, because they would find out how ill-prepared we are up 
here.
    Governor Keating. But I was respectful, Mr. Chairman.
    Mr. Shays. I am sure you were.
    Governor Keating. I think the natural result of this should 
be a debate, a discussion, of how to respond to both man-made 
and natural disasters. What are the likely natural or man-made 
disasters that you will confront? Those that influence the 
middle of the country and are anticipated, tornadoes on the 
coast, hurricanes, obviously earthquakes. Every fire 
department, police department, civil emergency management 
agency worth its salt has murder-boarded the issue of response 
to a national calamity that happened and frequently happened on 
more than several occasions.
    You know, in--when something like that happens, you need so 
many hospital beds, you need so much water, you need so much 
extra power. You need so much quantity of medical supplies. And 
you have murder-boarded, you have debated it. You have 
discussed it with your National Guard commander, with the civil 
emergency management people. The leader of every State has to 
anticipate and respond.
    This is the kind of thing that the States, individual 
States, are not in a position to anticipate and respond, 
because they have no knowledge.
    What stunned me, and Dr. Hamburg during the scenario made a 
very excellent statement to the effect that medical doctors, 
many medical doctors, health care professionals, because 
smallpox has been eradicated from the United States and from 
the world for several generations, that there is no knowledge, 
no experience. So when something like this happens, as Senator 
Nunn said, to have health care professionals probably 
coordinated at the State Department of Health level, trained at 
the State level to recognize plague, to recognize contagious 
diseases, and then to be able to access perhaps through FEMA 
the body of knowledge necessary to respond quickly. I must 
confess that obviously I carried the torch of State and local 
responsibility, but I was rather surprised at the level of 
ignorance, if not prejudice, toward--against, I should say, 
State and local responders.
    The truth is the first information that people receive 
locally about a contagious event or a terrorist act will be 
from the local television, radio, local media. It needs to be 
accurate to the extent that the information can be provided, 
that it is accurate. The initial responders always will be the 
local police, local fire, Red Cross, the social service 
agencies below. They need to have accurate information. They 
need to be able to access, as--again, as I said, perhaps 
through FEMA, I think most respected at the State level to 
provide that information, the knowledge base to respond 
intelligently and quickly to a calamity to make sure that there 
is not a greater swath of tragedy than can be controlled.
    For example, in my case I mentioned I closed the airports 
and the roads. All of this was spontaneous after I was told as 
a Governor this is highly contagious, frequently fatal. Well, 
obviously I don't want people coming in and then going out and 
affecting other areas if this was an attack on a city in my 
State. Was that a right or wrong decision? Well, it was made, 
and I could only make it based on the information given to me. 
The information given at the scene, because I just happened, as 
a friend of President Nunn, to be there, was that quarantined 
isolation is essential, especially because there is no 
treatment and because death can occur.
    Well, the need to be able to have that information fully 
available, quickly available, accurately available to be able 
to send in the medical personnel, to be able to be assured of 
food and water supplies and other health care essentials, 
particularly vaccines, these are the kinds of things that we 
can't produce locally, we have to access.
    Now, I think when we got into the argument over the 
nationalization of the Guard, I pointed out if I had to go 
through 15 different people to get a decision to be made, 
that's not good. On the other hand, if one person, my adjutant, 
can make the decision or I can, people that know me, know the 
Governor, know the mayor, know the police chief, know the 
anchor on television, the local officials with excellent 
information from Washington can make wise judgments and 
decisions that will be embraced by the generality of the 
populace. But this discussion must take place within the 
context of State and local first responders. They are the ones, 
for better or for ill, that will either do it well or muck it 
up, and if the information provided us is inadequate or 
inaccurate, then the response may be quite different, and the--
and the concentric circles of tragedy may be much wider if the 
information early on is not accurate and fully available to 
those of us at the State and local level who must make the 
decision to respond.
    Mr. Shays. Mr. President, who's next? Who would you like 
next? Dr. Hamburg or Dr. Hauer? Mr. Hauer?
    Mr. Hauer. Mr. Chairman, thank you. I'll be brief. I want 
to emphasize a number of points that this exercise brought out, 
and I think you've heard some of them already: One, that the 
country is woefully prepared to deal with an incident of 
bioterrorism. More importantly, an incident of bioterrorism 
with a contagious agent would absolutely devastate this Nation 
at this point in time.
    Some of the issues we had to deal with and struggle with 
throughout this exercise are issues that need attention. I must 
say that Secretary Thompson, whom I've been working with for 
several months now, has made this a high priority and is a--as 
part of the reorganization of the agency in putting Scott 
Lilbridge in as special attention--special assistant is--he 
wants to ensure that as we move forward, we address some of the 
issues that came out of Dark Winter.
    I think one of the things that both the Governor and 
Senator Nunn emphasized that we had to deal with was this whole 
issue of augmenting medical care at the local level, something 
that would be an enormous challenge. I think that the approach 
that we've taken so far as a Nation is we've looked at various 
little stovepipes in getting the country prepared. We've got a 
vaccine in place. We've put some teams around the country, the 
Metropolitan Medical Strike Teams, but we have not looked at a 
comprehensive system. An incident like this is going to take a 
number of things coming together, or we are not going to be 
able to respond.
    Let me give you one example. You keep hearing about 
vaccines. We clearly at this point in time don't have enough 
vaccines in the United States to deal, one, with an incident. 
Having the vaccine is great, but having the ability to 
vaccinate people is going to be a challenge in any 
jurisdiction, particularly larger cities where you have to 
vaccinate millions of people in a very short period of time. 
The logistical infrastructure necessary to vaccinate the people 
of New York City, Los Angeles, Chicago is just--would be mind-
boggling. At the same time you're dealing with the logistical 
infrastructure necessary to deal with vaccination, you've also 
got to augment the local medical care because, as Senator Nunn 
said, we're in an environment where hospitals are scaling down. 
We don't have residual medical capacity. I don't know where at 
this point in time we would get that augmentation of medical 
care. We would have to rely on the DOD, we would have to rely 
on the National Disaster Medical System, but if, in fact, you 
had more than one State, more than one city, multiple large 
cities, we would rapidly exhaust that capacity very quickly.
    Then, I think there's a couple of other important points, 
and then I'll let Dr. Hamburg make her comments. We need to 
address some of the issues of isolation and quarantine and the 
legal authorities necessary. We struggled with that throughout 
the exercise. Who has the authority to do what? How do we 
enforce it? At what point in time do we use force on the 
citizens of this country? And who makes that decision?
    And then finally I think it's very important that we look 
at the psychological impact of one of these incidents and how 
psychologically it will impact both the people that are 
involved and the responders, something that I don't think we've 
planned for. I know that there is some work going on right now, 
but the psychological impact of one of these incidents would be 
absolutely devastating both on the people that are impacted by 
the incident and those people that have to respond just by the 
sheer nature of the stress of one of these incidents.
    I think back when I was a director of emergency management 
for New York City, my worst nightmare was one case of smallpox, 
not dozens, but if I had gotten a call saying that we had one 
case of smallpox, that would be a major, major public health 
incident in the city of New York, and at this point in time, as 
well prepared as I think we were in New York City, no city, no 
State is capable of dealing with an incident like this.
    One final point. Smallpox is somewhat unique because unlike 
anthrax where you have to disseminate the agent here in the 
country, where you have to go into the subways, you have to go 
into an environment like a building like this and spread it, 
they could actually infect these people just--you know, we have 
people who are suicide bombers who want to die for the cause, 
and with smallpox you can infect these people overseas, send 
them into the country. They never have to be carrying the agent 
with them, so there's nothing to search, and as they become 
infected somewhere between the 9th to 12th day after they've 
been exposed, they then start riding the subways, come into 
buildings like this. They might have pox on them, but in the 
early stages it would probably not raise a lot of concern, and 
they could actually be the carriers, the Typhoid Mary's, so 
that speak, and spread this thing throughout the country, and 
we'd never know what hit us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hauer follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.044
    
    [GRAPHIC] [TIFF OMITTED] 81593.045
    
    [GRAPHIC] [TIFF OMITTED] 81593.046
    
    [GRAPHIC] [TIFF OMITTED] 81593.047
    
    Mr. Shays. Dr. Hamburg.
    Dr. Hamburg. Thank you. I'll try to be brief so we can get 
to your questions.
    I should say at the outset that I came to this exercise and 
come to the discussion today with both a local and Federal 
perspective. I served 6 years as New York City's Health 
Commissioner, was Health Commissioner during the bombing of the 
World Trade Center, and also in that capacity clearly managed a 
wide range of infectious disease and epidemics, and also began 
a program to deal with the threat of bioterrorism. I then spent 
close to 4 years at HHS helping to shape a still fledgling 
bioterrorism initiative there. So for me, addressing these 
kinds of issues could not be of greater importance, and the 
importance of the partnership and planning that has to occur 
today in order to address the different levels of government 
and the cross-cutting nature of the response required is 
absolutely essential.
    I think that the most important point, and why in some ways 
this exercise, I think, was somewhat unique, was that it really 
demonstrated how a bioterrorist event would be different from 
the other kinds of conventional terrorist attacks that we are 
more familiar with, sadly; or even an event using another 
weapon of mass destruction, that it would really unfold much 
more slowly over time as a disease epidemic; and that the 
traditional first responders from a lights-and-sirens kind of 
response would be police and fire, but would be Public Health 
in the medical care system, and that we really need to make 
sure that we invest adequately in a robust public health system 
and support our medical care system so that we can provide the 
response that will be needed to contain and control an event 
like this.
    That means that we need to really invest in our public 
health system. We need to improve our disease surveillance 
systems, our outbreak investigation capacity so that we can 
rapidly detect an event if it occurs, because rapid 
mobilization of response is what's going to be key to saving 
lives and containing the disease. We have to make sure that we 
have a medical care capacity, as others have said, that has 
enough flexibility in it that we can respond. This will be key 
for both naturally occurring and intentionally caused events. 
We do need to develop new drugs, vaccines, and diagnostics to 
make our Nation better prepared. We need to invest in research 
so that not only are we developing the drugs and vaccines that 
we know today might be effective against agents used in a 
potential bioterrorist event, but we have to think about new 
ways and new approaches that might give us greater capacity in 
the years to come.
    For example, not just thinking about one drug, one disease, 
but thinking about the possibility that in the future we might 
see genetically engineered threats or agents that we hadn't 
previously dealt with, or even as we speak today there are many 
diseases that exist in the world, many microbial agents that 
threaten the human population for which we have no drugs or 
vaccines. So we need to really develop an appropriate research 
agenda and invest in that.
    And I think critically Dark Winter underscored for all of 
us the importance of planning, preparing, and exercising. We 
have a very complicated challenge before us that will require 
many different agencies and levels of government to come 
together. We cannot afford to be learning things for the first 
time in the midst of a crisis. We must think about the types of 
challenges before us, and we must think about the kinds of 
strategies that would be effective in addressing them and put 
in place the necessary systems.
    And as I think, as others have mentioned, the good news 
here is that many of those investments will have immediate 
payoffs in our ability as a Nation to deal with naturally 
occurring infectious disease threats. So we appreciate what 
you're doing to help make our Nation stronger against the 
threat of infectious disease.
    [The prepared statement of Dr. Hamburg follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.036
    
    [GRAPHIC] [TIFF OMITTED] 81593.037
    
    [GRAPHIC] [TIFF OMITTED] 81593.038
    
    [GRAPHIC] [TIFF OMITTED] 81593.039
    
    [GRAPHIC] [TIFF OMITTED] 81593.040
    
    [GRAPHIC] [TIFF OMITTED] 81593.041
    
    [GRAPHIC] [TIFF OMITTED] 81593.042
    
    [GRAPHIC] [TIFF OMITTED] 81593.043
    
    Mr. Shays. Before I recognize Mr. Gilman for the first 
questions, I just want to make a few observations as chairman. 
One is I found myself getting very uptight. I thought, what are 
you, nervous? I found myself feeling very uneasy, and then 
thinking you can't laugh when you're talking about something so 
serious because, you know, that's kind of absurd.
    And I was thinking that you--the two unrealistic things for 
me, the only two that I really heard, is, one, that you would 
have been in Washington, and, two, that you would have stayed 
in Washington because, knowing you, you would have gone back 
home with your constituents and your family.
    But then I found myself saying now, do you get the vaccine? 
And then if you get the vaccine, are you going to get the 
vaccine and not allow your wife to or any other family member? 
And then if you get the vaccine, and then you order people that 
they have to stay in Oklahoma, the outcry is, yeah, it's easy 
for you to do, you know, and just the implications in the talk 
shows and the--it was a chilling, chilling thing to see this 
news broadcast and knowing that was less stated than CNN. I 
mean, I can imagine what some would have said and how it would 
have been said.
    So I just find myself in one sense grateful as hell, 
frankly, that you all have been able to dramatize this, because 
there have been a number of people who have been trying to say 
to people in the United States and to our government, wake up, 
and not to steal something from Mr. Tierney, but to give him 
credit for this question, he said, which is more likely, an 
errant missile from North Korea or this kind of experience, a 
terrorist attack? Not that they are mutually exclusive, but if 
you told me I only had the dollars for one, there's no question 
that I would put my dollars here.
    Then just two other points. Senator Nunn, your comment 
about the World Health Organization, I chaired the Human 
Resource Subcommittee of Government Reform. We oversaw HHS, 
FDA, CDC, VA, a whole host of others related to health care, 
and I am in awe of the World Health Organization. I mean, the 
attack I fear most is the pathogen. It's not the soldier with 
the weapon. And some of these individuals in the World Health 
Organization go around the world unarmed trying to determine 
what is this outbreak.
    And I conclude by just saying to you I have so many 
questions. I mean, I couldn't keep up with the questions that 
you all generated by your presentations. So I know you--like 
you wanted to just make a point since I mentioned your comment 
to me, but I would----
    Mr. Tierney. No. I'll wait.
    Mr. Shays. OK. You'll have plenty of time.
    Mr. Gilman, you have the floor.
    Mr. Gilman. Thank you very much, Mr. Chairman.
    It's certainly startling to hear all of these observations 
by this panel. Let me ask--I think it's Mr. Hamre--you've been 
the sort of the guide to putting it together; am I right?
    Mr. Hamre. Sir, I was--I head up one of the three 
organizations that cosponsored it. We did coordinate it at 
CSIS. Sue Reingold behind me was the coordinator. Randy Larson 
was for Answer Corp., Tom Inglesby for the Johns Hopkins 
Center, and he's----
    Mr. Gilman. Was it Mr. Larson's idea, this initial thinking 
about all of this?
    Mr. Hamre. Well, I think Colonel Larson and Sue Reingold 
first started together, but the three were the teammates, and 
Tara O'Toole, who's not with us today----
    Mr. Gilman. Did any government agency participate, any of 
our Federal agencies participate in your Dark Winter?
    Mr. Hamre. We had observers that were at the exercise from 
the Federal Government, from the various offices that I said. 
Scott Lilbridge, who is going to the coordinator for Governor 
Thompson, Secretary Thompson, he was there; very important that 
he could participate. We had, I think, six committees, 
congressional committees, had representatives there.
    Mr. Gilman. Six of our committees? Which ones?
    Mr. Hamre. Your committee was there, and we had 
representatives from two committees in the Senate, and then we 
had individual offices.
    Mr. Gilman. When did you conduct your seminar?
    Mr. Hamre. We did it on June 22nd and 23rd, sir.
    Mr. Gilman. In 2 days?
    Mr. Hamre. Yes, sir. It was on Friday and----
    Mr. Gilman. I want to commend you all as panelists. You 
certainly put together some information that we ought to make 
good use of. Now, what are you going to do? You've got lessons 
learned, and I see you have about nine recommendations. No, I'm 
sorry, you've got 12, 12 significant recommendations. What are 
you going to do with all of these?
    Mr. Hamre. We ran out of computer disks or we would have 
probably had about 40. But, sir, we're in the process right now 
of producing a report that's part of the grant that we were 
given the McCormick Tribune Foundation and by the Memorial 
Institute for the Prevention of Terrorism----
    Mr. Gilman. And what are you going to do with that report?
    Mr. Hamre. That is going to be circulated and made 
available to the Congress and the executive branch. It really 
highlights the things that have to be done. We've signaled some 
of them here. The most important is that the government needs 
to start exercising itself, it needs to start going through 
this process to find out what we would do when we're confronted 
with that sort of a dilemma.
    Mr. Gilman. Where would you focus that attention? Who 
should be the implementer now of all of this? Should there be a 
central office, for example, to implement your recommendations?
    Mr. Hamre. Sir, I think that President Bush has decided 
that he's going to put the focal point with FEMA, and the 
Director of FEMA is going to be taking the lead. The Vice 
President's office is coordinating an interagency review 
process right now.
    Mr. Gilman. Of this report?
    Mr. Hamre. No, sir, of the issues in general, and we'll be 
sharing it with FEMA's Director, Mr. Lacy Suiter. We'll be 
getting together with him later this week, and I'm meeting 
tomorrow with the Vice President's Chief of Staff.
    Mr. Gilman. Now, what would your panel feel is the 
appropriate central authority for instituting your 
comprehensive plan?
    Mr. Hamre. Well, I will let others speak, but, sir, I think 
that it has to be--President Bush needs to decide how he wants 
to organize his government. I think he's decided that. I think 
he wants to put the focal point on FEMA and then have the Vice 
President be the coordinator of the interagency review that's 
required to support that. So I feel that decision's been made. 
I think we ought to be doing what we can to help him make that 
decision work.
    Mr. Gilman. Let me ask our other panelists, what do you 
recommend for proper and effective implementation of your 
findings?
    Governor Keating.
    Governor Keating. Well, let me analogize, if I may, Mr. 
Gilman, to the Oklahoma City bombing. We had a criminal 
investigation going on simultaneously with a rescue and 
recovery operation. It would be a similar event if this were to 
occur, a criminal investigation in companionship with a rescue 
and recovery and health care response. Obviously local police 
and the FBI would be in charge of the criminal investigation, 
but they are not health care providers. And the rescue and 
recovery people, the local civil emergency management people 
are not criminal investigators.
    The resources that are needed for the purpose of responding 
to the health care challenge, not the criminal investigation--
those resources are already fully available in the FBI--have to 
be directed through an entity that the State and local 
governments trust and frequently work with. In my judgment, 
that is FEMA. During the tornadoes that we had 2 years ago, the 
most severe ever to strike the United States, and, of course, 
the Oklahoma City tragedy of April 19, 1995, under then 
Director James Lee Witt, the sources that were provided were 
provided promptly and fully, the advice and counsel promptly 
and fully in companionship with State and local authorities.
    It's a mistake to have someone say, I'm in charge here. 
There has to be a sense of comity and goodwill and joint 
sharing of responsibility, and that can be, is done, all over 
America all the time. In this kind of situation, you need the 
medical and the health care fast, and, in my judgment, only 
FEMA should be able to provide because we work with FEMA 
always.
    Mr. Gilman. You think FEMA, then, is the appropriate 
agency----
    Governor Keating. In my judgment, yes, Mr. Gilman.
    Mr. Gilman. Senator Nunn.
    Senator Nunn. I think the Governor's last point is what I'd 
like to underscore. This cuts across agency lines. I've heard 
John Hamre say a number of times that government's involved and 
structured as stovepipes, and yet vertically, but the problem 
here is horizontal. So it goes across a lot of different 
agencies.
    I commend Secretary Thompson for stepping out and having 
real emphasis on this, as we heard from Jerry Hauer. I also 
believe that someone from the National Security Council is 
going to have to have this portfolio, and I would have someone 
have this portfolio who's not spread too thin so that they can 
look across governmental agencies. I think the State and 
Federal has got to be given a lot of attention from the 
National Security Council and the HHS point of view. I believe 
it's essential that HHS officials be able to coordinate and 
have the President's blessing in advance clearly made--made 
clear to the other Cabinet officials, with Department of 
Defense, with the CIA.
    I've been told that there are some HHS officials in key 
spots that deal with this overall subject that don't have 
clearances. We are going to have to have coordination between 
health and security. I believe that is one of the fundamental 
underlying principles here is health is security, and an attack 
on the public health in this country is a security threat, and 
we have to join those. So I think that's the way I would 
approach it.
    I also believe----
    Mr. Gilman. Well, Senator, if I might interrupt then, are 
you disagreeing that FEMA should have the ultimate authority?
    Senator Nunn. I think FEMA is going to have to play a big 
role, but FEMA does not have the health kind of capability that 
they are going to need. They're going to have to go into the 
local communities and deal with doctors, and they're going to 
have to do it up here in Washington.
    Mr. Gilman. What I'm seeking is who should be the--have the 
primary authority here?
    Governor Keating. Mr. Gilman, let me postscript what I 
said, and I'm afraid I didn't fully develop my thought. What 
happens here is very relevant to what happens in Philadelphia 
or Atlanta or Oklahoma City. The coordinating mechanism here, 
for example, as Senator Nunn has indicated, if--within the 
National Security Council there's a portfolio for this. If 
there is a coordinative group put together in Washington under 
the Vice President's direction or under the FEMA Director's 
direction, it doesn't matter as long as HHS, everybody's around 
the table, Department of Defense, developing the book, how do 
you respond to this, smallpox or a hurricane or tornado? Then 
you take the book and give it to FEMA to share it with State 
and local officials who'll have to implement the results of the 
book.
    What I'm saying is to have a whole panoply of Federal 
agencies descending on a city won't work because the local 
health commissioner, the local mayor, the local police chief, 
the local National Guard commander, those are the ones that 
will actually implement the book, the reaction to whatever this 
tragedy may be.
    Mr. Gilman. Governor----
    Governor Keating. How it's coordinated here is not as 
important as having some kind of product that is shared with 
FEMA that we deal with daily in response to man-made and 
natural calamities.
    Mr. Gilman. Governor, that's why we recommend a specific 
agency or a specific comprehensive coordinator. We just went 
through a hearing on fragmentation by so many agencies on 
proper supplies for our defense forces--we found was fragmented 
through a number of agencies, and there was really no central 
controller, and that's why I'm seeking----
    Senator Nunn. Well, the key here is it's got to come under 
the President. He's got to direct it because unless his 
authority's behind it, my experience is you can pass a piece of 
legislation and say somebody's czar of something, and yet if 
the czar doesn't have any troops out, and if he doesn't have an 
agency, and if he doesn't have a large budget, and if he 
doesn't have power in the bureaucracy, nothing happens.
    I remember when we appointed a drug czar, Mr. Chairman, 
many years ago.
    Mr. Gilman. We worked together on that.
    Senator Nunn. Yeah, we did, and I supported that. But after 
he'd been in office about a year, year and a half, he came to 
see me, and I was shocked to find what he wanted me to do was 
get him an appointment with people at the Department of 
Defense. He hadn't been able to get an appointment at that 
stage. Now, we had the drug czar up here, but he didn't have 
anybody under him. He didn't have any power----
    Mr. Gilman. We finally got him into the Cabinet.
    I have a moment or two left. Dr. Hamburg.
    Dr. Hamburg. I think it is key that we have a national plan 
and one that involves a true cross-cutting approach. Preferably 
I think, and it's my personal opinion, there needs to be some 
mechanism of coordination that's central that has real 
accountability for both programs and to some degree budgets so 
that we really know across this wide array of agencies----
    Mr. Gilman. I think we recognize that. What I'm looking for 
is do you--have do you folks have some specific recommendation 
of who could do that most effectively?
    Dr. Hamburg. Your question in a way was who on the ground 
should be the lead also, though; right?
    Mr. Gilman. Who nationally should take control of all of 
this?
    Dr. Hamburg. You know, I think it actually could be a 
number of different players, but the key is that it be clearly 
defined and that we build around that. I think, as Dr. Hamre 
said, the President has made the decision that it should be 
FEMA, and I think operating on that assumption, that there are 
very natural partnerships that can then unfold. We want to 
build systems to respond to this threat that complement the 
kinds of activities that we do every day either in public 
health, disease control, or in emergency response so that we 
are not creating----
    Mr. Gilman. I'm exceeding my time, and the chairman is 
getting a little antsy on his gavel. Mr. Hauer, could you just 
answer----
    Mr. Hauer. Yeah. Very simply, FEMA needs to be the 
overarching agency that does the coordination of this at the 
Federal level and then rely on agencies like HHS for the 
expertise to deal with the unique parts of the bioterrorists--
--
    Mr. Gilman. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Just another observation. I felt like I've been in the 
middle of a movie, and maybe that's why I was anxious. I wanted 
to know how it turned out. And so I asked my staff how did we 
finally get a handle on it, you know, 12 million vaccines out, 
the disease spreading? And the response was we did not get a 
handle on it. They stopped the exercise before resolution. Kind 
of scary, huh?
    Senator Nunn. One thing, we were faced with a dilemma of 
having received very graciously from Russia a very large supply 
of vaccines, and we were then trying to decide whether to use 
them, and, of course, one of my national security people popped 
up and said, what if it's sabotage? Can we test them? And we 
were still waiting on the other emergency vaccines to come in, 
and we were in panic, as you saw on television. So we can't 
contend that we solved this problem, but I do think that no 
policy person, Congress or the White House, could sit through 
this and not say, we'd better get off the dime, we'd better do 
something about it.
    There's one other thought I'd like to inject that I don't 
think has been covered. We basically need to have the people 
who deal with biology understand the sensitivity of the 
materials they are dealing with if they got in the wrong hands. 
There needs to be an ethical best practices safeguarding system 
in this country to begin with, but throughout the world, in 
dealing with these materials, most of which are local, legal 
and legitimate. It's not like nuclear materials, which they are 
hopefully safeguarded except in certain spots, and we're trying 
to work on that in the Soviet Union, but the biological 
materials are part of our everyday commerce.
    Mr. Shays. Thank you.
    Mr. Tierney, you have the chair as long as you want it, 
give or take.
    Mr. Tierney. Thank you.
    Thank you all for your testimony and for going through that 
exercise. I didn't make an opening statement, so I'm going to 
take the liberty of just making at least an opening comment 
here.
    Senator, you talked very briefly about prioritizing the 
threats on this country, and I couldn't agree with you more. 
I'd be remiss for my own personal reasons in not just saying 
here that I think it's abominable that we are spending so much 
time on reinventing Star Wars and all this other silliness 
that's going on here without attending to a real prioritization 
of what real threats are and making a determination as to what 
really needs our attention first and how deeply that attention 
is needed.
    I note also that this administration just pulled out of the 
protocol for the biological weapons convention, so at least in 
the short term we won't be getting any real notice for any 
situation like this, nor the opportunity to inspect or to move 
in that direction, both of which I find a little disturbing.
    Let me ask, I would assume, Mr. Hauer, that we don't have 
the hospital capacity right now if we were to get involved in 
an incident like this with all the hospitals downsizing. I 
would assume that if we're really going to be ready for this 
type of an incident, we would try to think of some system, 
statewide at least, Governor, if not nationally, to determine 
how many hospitals we ought to have, where they ought to be 
placed with ready access to people.
    Mr. Hauer. You're absolutely right. I think, though, it's 
unrealistic to think that hospitals are going to develop a 
surplus capacity and just have it on standby for an incident 
like this just because of the cost. I think the issue at this 
point in time is trying to figure out how, when we have an 
incident like this, whether it's anthrax, smallpox, or some 
other agent, we can rapidly increase capacity both in existing 
facilities by augmenting staff and then finding alternate care 
facilities or casualty collection points where we can triage 
people who are sick with either smallpox or anthrax or 
something along those lines, and we take them and put them in a 
facility, and we augment the local medical care either with 
State resources, or more than likely, particularly with the 
contagious agent like smallpox, we'll have to augment them with 
Federal medical assets.
    Mr. Tierney. Thank you. For anybody who wants to answer 
this question, I assume that there was some determination made 
or at least some thought given to the fact whether or not we 
would want to have enough vaccine for forseeable types of 
incidents for our population, or was it that we were thinking 
of having an infrastructure in place that could readily produce 
the kinds of vaccines and antibiotics that we would need?
    Dr. Hamburg. Well, with respect to the smallpox situation, 
there was a remaining stockpile from the days when we actually 
were addressing smallpox as a disease, and the smallpox vaccine 
luckily is fairly durable. There was a decision made a few 
years ago that we needed more smallpox vaccine as a Nation to 
protect against this potential threat. Obviously it remains a 
low-probability threat, but a very high consequence as Dark 
Winter, I think, so compellingly illustrated. And so the 
Department of Health and Human Services does now have a 
contract with a private manufacturer to produce 40 million new 
doses of smallpox vaccine.
    That is a research and development task, though, and the 
current plan, which is somewhat accelerated compared to some 
vaccine development, is that those doses would be available in 
2005. In the exercise we simulated the possibility that we 
might try to mobilize those more quickly. At a stage that we're 
at now, one could produce millions of vaccine doses 
potentially, but it would be untested vaccine, which, of 
course, raises a whole set of other issues in terms of what 
does it mean to in an emergency use drugs or vaccines that 
haven't yet been licensed? And we made the decision early on 
that given the gravity of the situation, we would certainly 
move forward.
    But smallpox vaccine is one critical need that I think as a 
Nation we need to continue to address, make sure that we do 
develop that additional vaccine supply, and I think that we 
need to make sure that we think about the investment in 
developing new smallpox vaccine and other vaccines against the 
bioterrorist threat as a security concern, and make sure that 
we're not taking dollars from other existing medical problems 
to support that vaccine development, but that we see it as part 
of our national security investment.
    Mr. Tierney. Just for the additional doses of this smallpox 
vaccine you're talking about, it's about $350 million, and that 
is for smallpox, but I guess I'd like to also ask you do we 
look at the other anticipated things that might happen, anthrax 
or whatever, and also decide what a fair amount is to set aside 
on those?
    Dr. Hamburg. Absolutely. I think we need to really step 
back, and I wanted to make the comment earlier, in addition to 
thinking about what do we need to do in order to improve on the 
ground response, we also need to ask the bigger question about 
what do we need to prepare, overall preparedness. And part of 
that is really defining the set of threats as we see them today 
in looking at what do we have to respond to them and making 
sure that we develop new drugs, vaccines, and diagnostics for 
rapid detection to address those, and that we also think into 
the future about what we may need, given what we know about the 
new understandings of biotechnology capacity, the revolution in 
genomics, etc. We can't just assume that the diseases we know 
today are the threats of the future.
    So I think we really do need to think very carefully about 
developing a research and development agenda, and there is no 
doubt, as Senator Nunn indicated earlier, that we cannot rely 
on the marketplace to serve our country's needs in terms of 
some of the new pharmaceutical tools that we really will 
require to be truly prepared.
    Mr. Tierney. But the shelf life--I guess the shelf life of 
these things, if you make that vaccine, how long is it going to 
be good for?
    Dr. Hamburg. It depends on the particular vaccine. The 
smallpox vaccine stockpile that we have today is really very 
old. In the best of all possible worlds, I think we wouldn't 
choose to keep that vaccine on the shelf that long, but it's 
tested periodically, and it has been determined and FDA 
approved as good to go in a crisis.
    But, you know, depending on the drug or the vaccine, there 
are shelf lives that come into being. When there's a drug or 
vaccine that's used routinely in medical care, you can create a 
stockpile mechanism that allows you to recycle those drugs or 
vaccines so that you don't have to just put them in a warehouse 
and throw them away, but that you could have the capacity to 
surge if you needed it in a crisis, but use those in routine 
care. Something like smallpox, we don't use it routinely, so it 
will be stockpiled in the traditional sense of the word.
    Mr. Hauer. I want to allude to a point you had made, and I 
think it's one of the disconnects that we've got at the Federal 
level. As you look at vaccine development, trying to look at 
research and development activities on new vaccines, you have 
to really look at the intelligence that we're getting and try 
and figure out what the intelligence is and where you've got to 
put your money. And there is a disconnect between the 
Intelligence Community and the community in Health and Human 
Services in trying to understand what the real threats are.
    Mr. Tierney. I suppose some of that comes from the CDC and 
the sort of assessments of what's going on in other countries 
and what's showing up, but I--it also brings me back to the 
biological weapons convention. It's important that we get some 
sort of a protocol on this if we're going to have any type of 
advanced notice or any--the Center's going to just keep making 
these things forever. The idea is to try to get some negotiated 
concept of how we're going to stall the development, or to the 
extent we can't do that, at least try to put something in place 
that gives us some ability to have some notice, if I'm not 
mistaken on that.
    Mr. Hauer. That's correct.
    Mr. Tierney. Governor, I would assume that you're--it 
sounds like you're very familiar with all the local things of 
training and equipment, coordination, communication, structure, 
everything that would be needed. It would be expected 
reasonably that the Federal Government would pick up some of 
the resources for that--local communities, I would guess; 
right?
    Governor Keating. Well, yes, Congressman. And let me 
postscript what Dr. Hamburg said because--and Mr. Hauer said 
because it's very important that you vacuum intelligence 
sources to determine what is out there and what's needed to 
respond to whatever the calamity--anticipated calamity might 
be. We do that all the time at the State and local level for 
man-made disasters, and everyone, as I noted, prepares for 
these disasters, and we know pretty well the kind of things we 
need in order to respond.
    This is a situation where we don't know because we've never 
seen anything like this. Remember, FEMA is State and local--
FEMA consists of State and local firefighters, rescue workers 
and the like. The FEMA people that came to Oklahoma City, for 
example, came from Fairfax County, VA; from Prince George's 
County, MD; from Sacramento and from Los Angeles; and from 
Puget Sound; and from Miami-Dade and the like, Phoenix. All of 
them are local people who have been thoroughly trained to 
respond to, for example, building collapses in this particular 
case.
    That's all we're saying is that once the Federal Government 
figures out what's the problem, then the book that results from 
that analysis of what is the problem is distributed to the 
local and--the people at the local level, the State level in 
every State, an individual and an entity that's responsible for 
disaster preparedness and response, and we implement the book.
    Mr. Tierney. To the extent that the book may require that 
you have certain equipment in local police or fire departments 
or other agencies, that you have certain training exercises 
that go on, certain ability to have people that can communicate 
and coordinate those activities or whatever, is it your 
understanding that the local communities would be able to 
absorb those costs?
    Governor Keating. No, not necessarily. Some yes and some 
no, and some, for example, already anticipating certain types 
of natural disasters, have equipment and assets in place. But 
it depends on the nature of the beast. If there's a huge run on 
hospitals, there aren't sufficient resources to build new 
hospitals, and you wouldn't anyway. You'd use college 
dormitories, for example, remote college campuses, as we did in 
the scenario here. But you have to know what it is that you're 
dealing with, and then you determine whether or not you have 
the assets in place or if you need to import the assets. 
Obviously it's a lot cheaper to distribute the assets on a need 
basis as opposed to having them in a warehouse someplace, but 
it depends on the nature of the beast, the nature of the 
extent, how large and how expensive the response would be.
    Mr. Tierney. Senator Nunn, let me just close--I think 
you're an individual known for having probably spent a great 
deal of time thinking about and weighing threats to this 
country in an analytical way. On a scale of 1 to 10, with 1 
being a very likely scenario and 10 being least likely, what 
would be--assess this type of a threat to this Nation.
    Senator Nunn. It's really hard to assess the smallpox part 
of it as to whether it's smallpox----
    Mr. Tierney. As to----
    Senator Nunn. But some type of biological attack against 
the United States, I'd say the probability of it happening in 
the next few years is very high. I think that's probably a 
greater threat than the nuclear, although we've got to be very 
zealous in trying to safeguard nuclear materials in the former 
Soviet Union. As you know, I spent a lot of time on that, and I 
think that is a real danger, but I also believe the 
dissemination of biological would be something a terrorist 
group could carry out much easier than nuclear, in my opinion. 
It wouldn't be easy. It's not as easy as some might say, but 
it's doable, and I think the nuclear part would be much greater 
because the nuclear material would be harder to get access to.
    So I always have feared attack by a group that doesn't have 
a return address more than I have a country. That way we would 
know, for instance, if a missile were launched, and we would 
know where it came from, and they would in effect be committing 
suicide as a nation. So I fear this kind of scenario. I would 
not exclude chemical also as more likely.
    I might just add as one footnote, I've now spent a third to 
a half of my time on an organization called NTI, Nuclear Threat 
Initiative, but we're including the biological and the 
chemical. We're fortunate to have Dr. Hamburg, who's heading up 
the biological, and we're going to be determining what a 
private foundation can do in this area. Ted Turner is funding 
it. We don't have unlimited funds. The Federal Government is 
going to have to do most of the heavy lifting, but we're 
looking at this early warning surveillance system, whether we 
can help the World Health Organization and others beef up that.
    We're looking at the question of best practices, 
safeguarding materials, whether we can inspire the scientific 
community in this country and around the globe to organize 
themselves as the nuclear industry has done.
    The electric utility industry, after Chernobyl and after 
Three Mile Island, organized, and they have their own peer 
reviews. They have their own safety mechanisms not funded by 
the government.
    I think the pharmaceutical companies of this country and 
the world have a real opportunity here to step up to the plate 
and help safeguard a lot of this with their own resources. So 
the scientific community is going to have to be much more 
aware.
    And finally, we're looking at the possibility of really 
trying to help get jobs, meaningful jobs, for the former Soviet 
Union scientists that know how to make these biological weapons 
and spent a whole lifetime doing so, but don't know how they're 
going to feed their families. That is one of the most crucial 
other aspects of proliferation in the biological arena, in my 
view. So we're going to be active in this area, but we know 
that the big picture has to be dealt with by the governments of 
the world.
    Mr. Hamre. Mr. Tierney, may I just say----
    Mr. Tierney. Sure.
    Mr. Hamre. We had a biological terrorist incident in this 
country. People forgot about it. It was 10 years ago. There was 
a kooky little outfit out in the Pacific Northwest that sprayed 
salmonella on a salad bar and infected, you know, hundreds of 
people. We've had it in this country. Now, fortunately, it was, 
I guess you'd say, more on a scale of a nuisance, but, you 
know, there are enough nuts out there that would want to make a 
point, and this is not in the realm of the theoretical. This 
is----
    Senator Nunn. The Aum Shinrikyo, I had a set of hearings in 
1995 where I sent investigators to Japan and looked at the 
whole Aum Shinrikyo attack over there, which was chemical, but 
they were working on biological, and this was a group that had 
hundreds of millions of assets. They had tried to develop 
biological weapons. They developed chemical weapons. They'd had 
other attacks, and they were even doing some experimentation in 
Australia on sheep with biological and chemical weapons, and 
all of that was going on with substantial assets in Russia, and 
they never had appeared on the radar screen of either our 
intelligence or our law enforcement agencies. We never heard of 
them until this attack. So it shows the need for coordination, 
too, with other nations in the world.
    Mr. Hauer. Yeah. The Aum on eight different occasions tried 
to use biological weapons and did not overcome some of the 
technical problems encountered with these types of agents. But 
as the Senator said, this was very high on the radar screen. 
They tried using it. They tried killing a judge with anthrax in 
Japan and were not able to use the agent successfully, but it's 
only a matter of time between--before some of the technical 
issues are overcome by some group somewhere.
    Mr. Tierney. Well, I thank all of you for the work you've 
done on this, and, Senator Nunn, you in particular for the work 
you've done in the nuclear area in the past also.
    Senator Nunn. Thank you very much.
    Mr. Shays. Senator, I notice you're looking at the clock. 
It's getting a little late, I realize----
    Senator Nunn. I'm thinking of you because you've got 
another panel. I've been in your spot.
    Mr. Shays. I'll tell you, this is so fascinating that 
sometimes you get antsy to ask the questions. I wanted to hear 
you all share what you know before we even got to the 
questions. I'm going to kind of jump around the board here.
    I'm interested, Mr. President, when you had the thought 
that Iran might have been responsible, did the military step in 
and advocate a response, and then did they get in any question 
about the soldiers being vaccinated and taking up some of those 
valuable----
    Senator Nunn. Good questions, Mr. Chairman. Two points. One 
is right at the very beginning of this scenario, the Secretary 
of Defense demanded we set aside something like 3 million doses 
of vaccine for the U.S. military. Of course, my first instinct 
is to protect the military, but after 10 seconds reflection, 
the local health officials in Oklahoma City and Georgia and 
Pennsylvania were the ones we had to take care of first and 
foremost.
    The scenario that we had in terms of foreign was the Iraqi 
mobilization of tanks toward the Kuwaiti border, and the news 
media speculation on Iraq being involved in this was not backed 
up by anybody that had any intelligence. We got no 
intelligence. I told my good friend Jim Woolsey, who was then 
the Director of CIA, that he gave me one hell of a lot of 
policy advice sitting around the table and not one ounce of 
intelligence.
    Mr. Shays. You know, knowing him as little as I do, I have 
a feeling he didn't react kindly to that comment.
    This is the 20th hearing we've had on this issue, or 
briefing, and I keep learning more things. Now, obviously we've 
had 40 government agencies on the Federal level. We have 3,000 
plus State, county, local governments, and they have all their 
departments and agencies. So we're talking about a lot of 
people. I'm fascinated by this concept of ultimately, you know, 
we don't write a playbook, so we don't know exactly what a 
President is going to do and what authority he's going to take 
and what authority the Governor is going to take. But it just 
strikes me that what ultimately will happen is that the 
President will decide whatever the heck he or she wants, and 
that's what a Governor is going to do. I mean, you're not going 
to--you're not going to question your counsel to say, you know, 
do you have the authority?
    Maybe, Governor Keating, you could tell me how you would 
respond. Let me say you might question them, you just might not 
listen to them.
    Governor Keating. Of course. Mr. Chairman, I think everyone 
in a public position will try to do the best job he or she can 
with the information at his or her disposal, and that is the 
problem. In this case there simply wasn't the information--the 
level of ignorance at least at the local level was very high, 
and the willingness to respond intelligently and forthrightly 
and quickly was limited by the intelligence, the knowledge at 
hand.
    So what I'm saying is that the President with the 
Governors, there is a relationship, I think, generally of 
comity and goodwill. If something like this were to happen in a 
multi-State environment, the President will look to the 
Governors to provide the execution, and the Governors will look 
to the mayors and community leaders to provide for the 
execution of whatever the plan is to respond, and that plan has 
to be federally developed. There's simply no way that the 
Governor of Florida, the Governor of Oregon, the Governor of 
New York, whatever, would anticipate nor prepare for, either 
with assets or with intelligence, a response to a smallpox or 
an anthrax attack.
    But what struck me, and I made this comment at our session, 
was if you're preparing for war, you anticipate types of wounds 
that your troops will receive, and puncture wounds are what 
bullets create. So your people are trained, medical people, to 
respond to puncture wounds. If this kind of scenario is what 
the Government of the United States feels could happen to our 
people, then to have doctors at the local level have no 
knowledge of it, no knowledge of how to respond to a puncture 
wound is potentially grossly negligent.
    Mr. Shays. Could you just touch as briefly as you can on 
this issue: Did the power vacuum get filled by a President and 
Governor who just said, I've got to run with this? Do you think 
it's possible to try to anticipate the powers that would be 
needed, or do we just kind of let it unfold with people 
logically responding to a President, logically responding to a 
Governor?
    Governor Keating. Well, there's a combination of both 
really.
    Mr. Shays. And then I'd like Senator Nunn----
    Governor Keating. I mean, there's a combination of both. I 
think in the case of most States, our civil emergency 
management people train for scenarios that they anticipate will 
happen to their State, whether it's a hurricane or a string of 
traffic fatalities, the shutdown of a subway by----
    Mr. Shays. I hear that part.
    Governor Keating. So I'm saying, so they're training, and 
if an event occurs, the media, everybody comes to us for a 
response, and in the case, for example, of the Oklahoma City 
bombing, President Clinton called me. We talked about what I 
needed, what he was willing to provide. Everything worked like 
clockwork because we had highly professional people on the 
ground. But if he had no idea what to do because he had no idea 
what happened, if I didn't know what to do because all of a 
sudden people were falling over dying and we don't have a clue 
as to what is causing this, we have a problem. It's 
intelligence information that's most in need.
    Mr. Shays. Right. I don't mean to be disrespectful. I'm 
still pursuing this one question. It seems to me, Senator Nunn, 
that in the course of your exercise of responsibility as 
President, that you basically decided to make some decisions 
without necessarily knowing whether you had the authority or 
not, because you knew somebody had to make them.
    Senator Nunn. You have to make them, and you have to just 
step up to the plate and take the best swing you can, because 
at that State you don't have time for a legal research job. You 
have to swing, and you have to have a partnership with the 
State and local, and I think that's going to depend in the 
future about whether FEMA can take this ball and really roll 
with it.
    I think FEMA has dramatically improved during the last few 
years, but they are going to basically have a lot of support 
from the White House because they're going to have to cut 
across agencies, and they're going to have to do a lot of 
groundwork with our counterparts at the State level. If I'm 
dealing with Governor Keating in this crisis, and he's back 
home and not in the National Security Council, which would be 
probably a more natural event, then the question of how well 
FEMA's prepared with his people in advance for this or other 
type scenarios would be important in terms of how well he and I 
would be communicating or we'd be getting feeds from our own 
people.
    Mr. Shays. Obviously, Governor Keating, there's not a 
person in this room that doesn't know the experience you went 
through, so you bring tremendous expertise. In that case, 
though, it was--which is true in a chemical attack or explosive 
or conventional or even nuclear, it's pretty much there. What a 
President is wrestling with--what you wrestled with is in the 
event it goes outside the city, it goes everywhere. So it 
introduces so many gigantic question marks.
    But maybe I can ask this of the other panelists as well. If 
Congress were to decide the power of a President, or the power 
of a Governor in this case, my concern would be that we would 
start to get into an issue of, my gosh, we have civil liberties 
here, which is obviously important, but then we would try to 
write a scenario that would respond to both sides; in the end, 
we might lock a President in. Is the ambiguity almost better--
and then I'm going to get to another question. I'm still on 
this question. Is the ambiguity almost better because it would 
be hard to write--maybe, Dr. Hamre, you could respond first--it 
would be hard to write a scenario without getting in gigantic 
debates about civil liberties and so on and so forth?
    Mr. Hamre. Sure. I tell you what, I walked away from one 
conclusion that was overwhelming in my mind, and that is why we 
have elected politicians who are national decisionmakers at a 
time like this. This is now where all of the issues that are so 
central to how we love and want our country, freedom, liberty, 
opportunity, security, they all collided together, and we don't 
entrust the ultimate authority to make those decisions to 
anybody else except politicians, politicians who are 
accountable to the electorate, and that's who--the people who 
are making the decisions at this exercise were the two people 
who had faced the electorate, had worked with the electorate 
and felt accountable to the electorate, and that was the 
Governor of Oklahoma and the President of the United States. 
That's where it really belongs.
    I think trying to overly engineer in isolation the solution 
to how you're going to handling a crisis when you're in a 
wartime environment, this is a wartime environment, any other 
way would be a mistake. Leave it to the people who we've 
empowered to be making decisions for all of us. I felt in good 
company having them make the decisions, personally.
    Mr. Shays. Mr. Nunn.
    Senator Nunn. I would just add one other thing. I do think 
it's important for this subcommittee and the full committee and 
the Congress to anticipate some of these broad scenarios in 
determining how much authority you want to give to the 
President of the United States and Secretary of Defense and 
others. We did that when we passed the Nunn-Lugar legislation 
in 1991 on the question of bioterrorism and chemical. We gave 
more authority and had some waivers of the posse comatitus 
statutes back then, and I'm sure that needs updating. It was 
done years ago, I believe, under the Reagan administration in 
terms of posse comitatus waivers, use of military in nuclear 
scenarios.
    But I think some of that really needs to be fundamentally 
thought through here, because if you don't have any authority, 
and the first day the President has to breach what some may 
perceive to be the existing law, then where's the line after 
that? As hard as it is, I think you need to try to tackle it, 
because when you get into that sort of situation, any President 
of the United States or any Governor is going to be asking 
questions; what is the law, what is my authority? They're going 
to ask those questions, and they must, but if they get an 
ambiguous answer back and they don't know, they're going to 
seize the authority when the lives of millions of people are at 
stake.
    Mr. Shays. But I'll even say something more. Even if the 
law were in contradiction to what a President's instinct was, 
if the end result was a very good decision ultimately for the 
survival of our Nation, I hope to God that President makes that 
decision.
    Senator Nunn. I think he would. I think he would need to 
explain it to the American people very carefully, though, and I 
believe that the question of how far you were into the scenario 
would be all important. The hardest thing for a President would 
be to take that kind of action before the people knew there was 
a serious problem.
    Mr. Shays. I am struck in all of the work that we have done 
on terrorist issues, that terrorists want to disrupt almost 
more than they necessarily want to kill. I mean, the potential 
terrorist attack on the tunnels in New York where you would 
have flames coming out both ends, the question is, would people 
ever go into those tunnels again? And what would that do to the 
commerce of New York? Those kind of things have such long-
lasting impact.
    The Gilmore Commission, getting to Mr. Gilman's comments 
about reorganization and lines of authority and so on, 
advocated a central office to coordinate a domestic response to 
terrorist attack, with clear budget authority and intelligence 
capability.
    The Hart-Rudman Commission advocates a centralized office 
called the home office. Frankly, it is a term--actually the 
more I thought about it, there is so much logic to it. The 
Coast Guard and FEMA and so on. But it still raised a question 
as to what authority--still have to come to grips with what 
authority, budget authority, you know what kind of line 
authority do you have and so on.
    And, Dr. Hamre, your organization has also called for 
centralized coordination. In the end, would all of the 
panelists, if there is a disagreement here, agree that we have 
to have a much more centralized control with budget authority, 
with some line responsibilities, with a clear--more than a drug 
czar, with some clear ability to dictate budgets on other 
departments if it relates to this issue?
    Dr. Hauer.
    Mr. Hauer. Yes, I think that is essential. I think that the 
fragmentation that we have seen at the Federal level has really 
hurt the country's preparedness. The majority of the money over 
the last 4 or 5 years has gone into buying toys for local 
governments for chemical response, and for the lights and 
sirens response.
    CDC and HHS in the last several years has worked hard to 
try and begin to rebuild the Nation's public health 
infrastructure, but that is going to take some time.
    The issues that we confront in preparing for biological 
terrorism are completely different than the issues we deal with 
in preparing for chemical terrorism.
    I think it is very important that we have a central focus 
at the Federal level that can have this overarching approach 
that looks at chemical, biological, nuclear, the use of dirty 
bombs is a very big concern at the local level; not nuclear 
bombs, but dirty bombs.
    We need to have one point of contact. We get mixed messages 
from various Federal agencies and have gotten mixed messages. 
When I was still in my capacity in New York City, we could call 
three or four different Federal agencies, the Justice 
Department, FEMA, HHS, and DOD and get different training. The 
training was not necessarily consistent. Different programs, 
different recommendations, different recommendations on 
equipment. And we found it to be very inefficient and very 
ineffective. A lot of that is changing. A lot of the program in 
DOD has moved over to the Justice Department.
    But realistically this should be housed in a central 
location, in my opinion, and should be in FEMA, with strong 
support from the White House. And then at--the other agencies 
should be working through FEMA, so that there is one voice at 
the Federal level, one coordinated plan at the Federal level, 
and that money flows in a coordinated fashion to the State and 
local governments.
    Mr. Shays. Let me conclude just with an observation and not 
to--Mr. Tierney and I agree on many things, and we sometimes 
view it slightly differently.
    I have met with Ambassador Mehle on more than one occasion 
in Geneva and here during the Clinton administration, and he 
had tremendous reservations about the protocol, not the 
convention on biological weapons.
    In other words, we have a convention that we are not going 
to make biological weapons. The protocol is the challenge. How 
do you determine whether countries are doing it? And my 
observation and my view is that the protocol would provide 
minimal inconvenience to the bad guys and ladies and cause 
tremendous problems for those who wanted to abide by the system 
in an honest way.
    So I would have probably predicted that this former 
administration would have had gigantic questions about T. Board 
Post, the Ambassador who has done the protocol. And I sense 
that--at least my observation is that the policy isn't all that 
inconsistent.
    But time remains, and I could be wrong about it, but that 
is my sense.
    Mr. Kucinich, would you like us to go to the next panel? Is 
that all right?
    Mr. Kucinich. Yes.
    Mr. Shays. I don't know, there was probably a question or 
two that we should have asked that some of you may have 
prepared for. Is there a question that you wished we had asked 
you that you thought important enough----
    Mr. Hamre. We have a wonderful panel that is coming next. I 
am not trying to get us off the stage, but you need to hear 
from them too, because they are actually the first responders. 
If there are questions that come to you that you would like us 
to answer, please route them to us and we'll make sure that 
everybody gets them and we can answer them.
    Mr. Shays. Any other comments? I am very grateful for you, 
all of you for being here. And we'll go to the second panel.
    Senator Nunn. I would like to thank you and the 
subcommittee for your leadership on this issue, not just today 
but going back in the past. I think that you have really been 
the voice of asking the right questions, you and the 
subcommittee. And I congratulate all of you, and hope that you 
continue it.
    Mr. Shays. Thank you. Very kind of you, Senator.
    Our second panel is comprised of those who respond on the 
line. Major General William Cugno, Adjutant General of 
Connecticut, accompanied by Major General Fred Reese, vice 
chief, National Guard Bureau in Connecticut; Major General 
Ronald Harrison, Adjutant General of Florida; Dr. James M. 
Hughes, Director, National Center for Infectious Diseases, 
Centers for Disease Control and Prevention, accompanied by Dr. 
James LeDuc, Acting Director, Division of Viral and Rickettsial 
Disease--sorry about that--National Center for Infectious 
Disease, Centers for Disease Control and Prevention.
    If I had the disease, believe me, I would learn the name.
    Dr. Patricia Quinlisk, medical director and State 
epidemiologist, Iowa Department of Health, and former 
president, Council of State and Territorial Epidemiologists; 
Dr. Jeffrey S. Duchin, chief, Communicable Disease Control 
Epidemiology and Immunization Section, Public Health, Seattle 
and King County, WA.
    Do we have all of our witnesses here? And I would like to 
say to my second panel, thank you for listening to the first 
panel. Sometimes we have some so-called name figures. But you 
need to know that this panel considers this panel of equal 
distinction, and we have the expectation that we will learn as 
much, if not more, from all of you as well.
    So with that, I would ask you to stand and raise your right 
hands, please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all of the witnesses and 
potential witnesses have responded in the affirmative. And I--
at this time I thank my colleague, Mr. Kucinich, for allowing 
us to go to the second panel, because we do need to get on. I 
don't know if the gentleman would like to make a comment, and 
if not, OK.
    We are going to begin with you, General Harrison. And then, 
may I ask the line--right down the line this way. This is the 
first time that I have ever gone that way. OK, General, you are 
on.

 STATEMENTS OF MAJOR GENERAL RONALD O. HARRISON, THE ADJUTANT 
    GENERAL OF FLORIDA; MAJOR GENERAL WILLIAM A. CUGNO, THE 
 ADJUTANT GENERAL OF CONNECTICUT, ACCOMPANIED BY MAJOR GENERAL 
  FRED REESE; DR. JAMES HUGHES, DIRECTOR, NATIONAL CENTER FOR 
     INFECTIOUS DISEASES, CENTERS FOR DISEASE CONTROL AND 
 PREVENTION, ACCOMPANIED BY DR. JAMES LeDUC, ACTING DIRECTOR, 
DIVISION OF VIRAL AND RICKETTSIAL DISEASES, DIRECTOR, NATIONAL 
CENTER FOR INFECTIOUS DISEASES; DR. PATRICIA QUINLISK, MEDICAL 
 DIRECTOR AND STATE EPIDEMIOLOGIST, IOWA DEPARTMENT OF PUBLIC 
     HEALTH AND FORMER PRESIDENT, COUNCIL AND TERRITORIAL 
 EPIDEMIOLOGISTS; AND DR. JEFFREY DUCHIN, CHIEF, COMMUNICABLE 
DISEASE CONTROL, EPIDEMIOLOGY AND IMMUNIZATION SECTION, PUBLIC 
              HEALTH, SEATTLE AND KING COUNTY, WA

    General Harrison. Mr. Chairman, thank you, and 
distinguished members of the subcommittee. I appreciate the 
opportunity to address you today and your continued support of 
the National Guard.
    The United States faces a variety of global security 
challenges and concurrent to these global challenges homeland 
security contingencies are expected to grow in significance. 
For the first time, defense of the American homeland has been 
incorporated into the guidelines for the American military 
strategy.
    The threat of asymmetric attack on critical U.S. 
infrastructure and on the Nation's ability to execute war plans 
is credible. All components of the United States military must 
prepare and be ready for the challenge of the homeland security 
mission.
    The great strength of the National Guard is its proven 
dual-mission capability. As part of the total force, the 
Florida Guard--excuse me, the National Guard is fully 
integrated and engaged in the joint operational support 
contingency operations, military-to-military contact, and 
deterrence missions.
    The training, organization, equipment and discipline 
developed for the Federal mission allows the National Guard to 
perform missions throughout the spectrum of conflict, ranging 
from the domestic response to the full major theater war.
    Homeland security has been a vital role for the National 
Guard since the Guard's inceptions over three centuries ago, 
and the National Guard recognizes the importance of its 
homeland security role, as evidenced by the Chief, National 
Guard Bureau's congressional testimony that the Guard must 
grant the same stature to the defense of the homeland as the 
support we provide to the combat commanders.
    The National Guard currently plays a significant role in 
the traditional homeland security missions involving response 
to natural disasters and civil emergencies. In over 20 States 
the State Adjutant General acts not only as the commander of 
the Army and Air National Guard units within the State, but 
also as the director of State emergency management.
    In other States the Adjutant General serves as the 
Governor's advisor for military emergency response. Regardless 
of the arrangement, the National Guard staffs operate in close 
coordination with State and local agencies to prepare for such 
incidents and mitigate their effects.
    As the National Guard looks to strengthen America's 
homeland, the Guard is prepared for homeland security missions 
in the areas of air-land defense, crisis consequence 
management. Examples of these missions include air sovereignty, 
assistance to Customs authorities, Border Patrol and other 
agencies, identification and protection of critical assets, 
force protection, information operations, military support to 
civilian authorities, National Guard weapons of mass 
destruction, civil support team programs, facilitation of the 
local, State, regional planning incident assessment and 
reconnaissance.
    The Dark Winter exercise provided a dynamic scenario to 
test the emergency response system. Although I was not a 
participant in this exercise, my experience as the Adjutant 
General of Florida has provided me opportunity to face crisis 
and consequence management involving man-made and natural 
disasters.
    As the Adjutant General, I am the primary military advisor 
to the Governor. I do not have emergency management under my 
responsibility. In Florida I command 10,000 Army National Guard 
soldiers and 2,000 Air National Guard airmen. My soldiers and 
airmen provide a unique asset to the State during times of 
disaster.
    While I cannot comment on the interplay of this exercise, I 
can provide a viewpoint that reflects the challenges faced by 
the National Guard during a time of crisis such as this.
    The National Guard is currently involved in response 
planning for weapons of mass incidents such as that posed in 
Dark Winter. The Guard constantly reviews its plans and the 
Federal response plan regarding weapons of mass destruction or 
any similar incident.
    At the national planning level, the National Guard Bureau 
is fully involved with the Department of Defense weapons of 
mass destruction initiatives, and then at the State level each 
National Guard is integrated fully into their State's emergency 
response plan.
    The National Guard is involved in regional planning through 
the Emergency Management Assistance Compact [EMAC], a mutual 
aid agreement between States that was developed to allow for 
the rapid deployment and allocation of National Guard personnel 
and equipment to help disaster relief efforts in other States.
    Such agreements enable the National Guard to provide 
support assets across State boundaries. Thus, the National 
Guard is structured at the national and State level to provide 
significant military support to civilian authorities.
    If a scenario outlined in Dark Winter occurred in Florida, 
the Adjutant General would coordinate, deploy and control 
National Guard forces and resources to provide military support 
to civil authorities.
    Unity of effort is crucial in these operations to ensure 
that the citizens of the affected area are provided the most 
effective support as there may be a requirement. For Federal 
military assets, the issue of command and control of these 
assets must be addressed.
    There have been initiatives to have the Defense Department 
broaden and strengthen the existing Joint Forces Command--Joint 
Task Force civil support to coordinate military planning, 
doctrine and command and control for military support for all 
hazards and disasters.
    Deployment of such a task force may clarify the command and 
control issue. There are alternatives to the deployment of this 
task force to manage Federal military assets. In the instance 
that the Governor has requested Federal troops without 
Federalizing the National Guard, the Adjutant General can 
provide reception, staging, onward movement and integration, 
RSOI, and have tactical control of Federal troops deployed to 
the State for the emergency.
    This mission relationship would allow the Governors to 
obtain Federal military assistance while maintaining the unique 
status and capability they have through control of the National 
Guard military assets responding to emergencies, a capability 
they would lose if the State's National Guard forces were 
Federalized.
    Regardless of the ultimate command and control structure 
used to employ Federal assets, all Federal, State and local 
assets must support the Governor's plan to address this 
disaster.
    State and local officials normally have the experience, 
critical information and local knowledge to ensure Federal 
assets are properly employed.
    The National Guard will continue to be the Governor's 
primary military asset to address emergencies. To improve the 
military support process, the National Guard supports the 
continued development of enhanced homeland security planning.
    Given the Guard's current missions and experience in 
homeland security, the Guard should be involved in homeland 
security, joint doctrinal development, joint regional 
exercises, tests and experimental efforts and expanded liaison 
and coordination with Federal agencies.
    It is our duty to meet the needs of our fellow citizens 
throughout the United States. Homeland security is the 
fundamental mission of our military. The National Guard will be 
prepared for its role in this mission.
    Mr. Chairman, I appreciate the opportunity to address this 
prestigious subcommittee, and I look forward to your questions.
    [The prepared statement of General Harrison follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.048
    
    [GRAPHIC] [TIFF OMITTED] 81593.049
    
    [GRAPHIC] [TIFF OMITTED] 81593.050
    
    [GRAPHIC] [TIFF OMITTED] 81593.051
    
    [GRAPHIC] [TIFF OMITTED] 81593.052
    
    [GRAPHIC] [TIFF OMITTED] 81593.053
    
    [GRAPHIC] [TIFF OMITTED] 81593.054
    
    [GRAPHIC] [TIFF OMITTED] 81593.055
    
    [GRAPHIC] [TIFF OMITTED] 81593.056
    
    Mr. Shays. Thank you, General Harrison. I appreciate your 
testimony. Major Cugno--General. Why did I say Major?
    General Cugno. Is there a message there, sir?
    Mr. Shays. No message. It is insubordination on my part.
    General Cugno. Good afternoon, Mr. Chairman and 
distinguished members. On behalf of the nearly 6,000 men and 
women who comprise the Connecticut National Guard in the State 
Military Department and the over 400,000 men and women of the 
National Guard, I want to begin by thanking you for the 
opportunity to testify and participate in these hearings on 
combating terrorism.
    I'll focus my remarks today on the role of the National 
Guard during State emergencies, specifically Connecticut, with 
my experiences in Connecticut. And I'll include biological 
weapons attacks similar to the exercise Dark Winter.
    As the Adjutant General of Connecticut, I am entrusted by 
the Governor with the authority necessary to carry out the 
provisions of our State statutes regarding the militia, the 
Connecticut National Guard, and the Office of Emergency 
Management.
    I serve as the principal advisor to the Governor on 
military matters, emergency operations, and civil support.
    As the Adjutant General, I have two main responsibilities. 
My Federal responsibility is to serve as the custodian of the 
CICs, or the Commander in Chiefs' forces on the Federal side, 
and I must be ready to deploy combat-ready soldiers and airmen 
when the President Federalizes units.
    In my State capacity as the Adjutant General, I am the 
senior emergency management official for Connecticut. I 
exercise this authority through our Connecticut Office of 
Emergency Management.
    Further, in May 2000 the Governor directed the Military 
Department to be the lead State coordinating agency in 
Connecticut for counterterrorism, domestic preparedness. This, 
incidently, was in response to the Justice Department's request 
for such information.
    Connecticut, as recently mentioned a moment ago by my 
colleague, along with 22 other States, has this Office of 
Emergency Management organized within its State Military 
Department and under the control of the Adjutant General. The 
OEM serves as the principal liaison and/or coordinator to the 
Federal office of FEMA, the Federal Emergency Management 
Agency, and our State law enforcement officials.
    Further, we divided the State into five emergency 
management regions. Each regional office maintains regional 
specific emergency plans and serves as principal liaison and 
coordinator to the 169 towns located throughout the State. In 
order to maintain an appropriate level of preparedness, my 
department develops and regularly exercises unified emergency 
operations plans for a number of potential State emergencies.
    We maintain and implement plans for nuclear preparedness, 
safety, natural and manmade disasters and civil disturbance. 
Next month we will conduct our third hurricane exercise in the 
last 2 years in preparing to implement our second WMD exercise 
this fall.
    In recognition of the uniqueness of each State, I offer my 
comments as specific to the State of Connecticut. However, you 
will find the roles, relationships and responsibilities that I 
described consistent throughout the 50 States. In Connecticut 
emergency response contingencies mirror the Federal response 
plan and most States' agencies have a role during State 
emergencies.
    The Governor's role is clearly outlined in both the U.S. 
Constitution and the General Statutes of Connecticut. Though 
the Governor expects and appreciates the effort of the Federal 
Government in preserving the welfare of our citizens and the 
infrastructure of our communities, ultimately during 
emergencies it is the Governor who is responsible for restoring 
normalcy to the citizens of the States.
    Politically, and I think most of my Adjutant General 
colleagues will agree, Governors consider the emergency 
response aspect of their overall duties paramount to 
maintaining public confidence and trust.
    The National Guard is a unique asset to this country and we 
are ideally situated and positioned to play an essential role 
in a Dark Winter type scenario. Reliance on the National Guard 
has been a cornerstone of American foreign and domestic policy 
for over 360 years. I submit to you that the National Guard has 
played a vital part in executing homeland security throughout 
our rich country's history.
    When missioned and properly resourced, the Guard has proven 
to play a significant national asset. Accordingly, homeland 
security should be seen as an additional mission, not the 
mission of the National Guard. As we develop our Nation's 
comprehensive plan, the Guard forces who span nationwide nearly 
3,300 locations and 2,700 communities should be recognized as 
the existent forward deployed military force to this country.
    Additionally, the majority of States that have interstate 
compacts and regional compacts will provide Governors access to 
additional resources. The compacts place responding assets 
under the operational control of requesting Governors, thus 
preserving the existing incident command structure and allowing 
a seamless transition into already existing emergency 
management structure within the States. These relationships 
make the National Guard uniquely qualified to perform a fusion 
role on behalf of the Department of Defense in domestic 
assurances.
    Though I did not participate in the exercise Dark Winter, I 
received detailed and candid feedback from some of my 
colleagues who observed it. In their eyes, though the exercise 
was useful and beneficial, it strayed from reality.
    Although Governor Keating played himself as the Governor, 
there was no person playing the role of the Adjutant General, 
who again in 23 States commands the State Office of Emergency 
Management and in the majority of States is not only a key 
participant during emergencies, but also keenly aware of the 
role of FEMA, and will often participate through exercises and 
routinely practices the State emergency plans.
    During State emergencies, the Adjutant General is a key 
official for the Governor, and he or she is used as a central 
and visible role.
    My colleagues remarked that the exercise was federally 
centric in nature, and it was their belief that the scenario 
facilitators intentionally moved quickly beyond the State 
capabilities to meet the demands of the President.
    They further indicated that it was evident from the 
comments of the Federal players very early in the exercise of 
their desire for the President to Federalize the Guard, and a 
general lack of understanding of the capability of the Guard to 
execute the mission.
    Finally, my colleagues informed me that in defense of the 
scenario drivers the Federal role players found it difficult 
and frustrating to deal with all of the different States, their 
capabilities and the various powers granted in these State 
statutes regarding civil emergencies.
    I can't emphasize enough the realities of what occurs in a 
State during emergencies. I know those who advocate a strong 
Federal role often underestimate these realities. The Governor 
has the ultimate responsibility to decide to restore normalcy 
to his or her citizens, and should to the greatest extent 
resist relinquishing control.
    Dark Winter proponents of a strong Federal role clearly 
demonstrate a lack of understanding of statehood and political 
realities. I am concerned that Dark Winter is an example of an 
exercise developed by respected institutions which have an 
important influence on our government's response plans yet fail 
to incorporate the most basic realities of State emergency 
response and State public policy.
    I would suggest for future exercises that we include a full 
spectrum of core emergency response officials on all levels. 
This would allow participants to exercise their plans and gain 
realistic experience of integrating plans at all levels.
    To recap, sir, I would like to leave you with the 
following. The Governor in my eyes is in charge. We must 
challenge adequate resources, Federal resources, to our State 
and local first responders through existing emergency 
management centers consistent with the Federal response plan.
    State agencies possess unique skills and assets which must 
be integrated and included in the response plans, and further 
exercises to be credible should also include existing State 
emergency plans and the National Guard.
    Mr. Chairman, thank you once again for inviting me to 
testify before your committee and allowing a forum for candid 
discussion. I am prepared to answer your questions. Thank you.
    [The prepared statement of General Cugno follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.057
    
    [GRAPHIC] [TIFF OMITTED] 81593.058
    
    [GRAPHIC] [TIFF OMITTED] 81593.059
    
    [GRAPHIC] [TIFF OMITTED] 81593.060
    
    [GRAPHIC] [TIFF OMITTED] 81593.061
    
    [GRAPHIC] [TIFF OMITTED] 81593.062
    
    Mr. Shays. Thank you, General.
    Dr. Hughes, it is nice to have you back, accompanied by Dr. 
LeDuc. Doctor, thank you.
    Mr. Hughes. Thank you, Mr. Chairman. And good afternoon. I 
am accompanied by Dr. James LeDuc, who is our Acting Director 
of our Division of Viral and Rickettsial Diseases. Thank you 
for the invitation to update you on CDC's public health 
response to the threat of bioterrorism.
    I will also briefly address specific activities aimed at 
improving national preparedness for a deliberate release of 
smallpox virus as simulated in Dark Winter.
    In 1998, CDC issued Preventing Emerging Infectious 
Diseases: A Strategy for the 21st Century, which emphasizes the 
need to be prepared for the unexpected, including antibiotic-
resistant infections, vector-borne diseases such as West Nile 
encephalitis, a naturally occurring influenza pandemic, or the 
deliberate release of smallpox virus by a terrorist.
    Building upon these efforts, last year CDC issued a 
strategy outlining steps for strengthening capacities to 
protect the Nation against threats of biological and chemical 
terrorism. This strategy identified five priority areas for 
planning efforts.
    The first priority area is preparedness and prevention. CDC 
is working to ensure that Federal, State and local public 
health communities are prepared to work in coordination with 
the medical and emergency response communities to address the 
public health consequences of biological and chemical 
terrorism.
    We are developing performance standards and are helping 
States conduct exercises to assess local readiness for 
bioterrorism. In addition, CDC with other agencies is 
supporting research to address scientific priorities related to 
bioterrorism.
    CDC, NIH and DOD are pursuing a collaborative research 
agenda on smallpox to improve diagnostic capabilities, identify 
effective antiviral drugs and identify how the virus causes 
illness.
    The second priority area is the critically important one of 
disease surveillance. Because the initial detection of a 
biological terrorist attack will most likely occur at the local 
level, it is essential to train members of the health care 
community who may be the first to identify and treat victims.
    It is also necessary to upgrade the surveillance systems of 
State and local health departments and strengthen their 
linkages with health care providers so that unusual patterns of 
disease can be properly detected. CDC is working with partners 
to provide educational materials regarding potential 
bioterrorism agents to the medical and public health 
communities, including a video on smallpox vaccination 
techniques.
    Third, to ensure that control strategies and treatment 
measures can be implemented promptly, rapid diagnosis will be 
critical.
    Fourth, a timely response to a biological terrorist event 
involves a well-rehearsed plan for detection, epidemiologic 
investigation and medical treatment. CDC is addressing this 
priority by assisting State and local health agencies in 
developing their plans for responding to unusual events, and by 
bolstering CDC's capacities within the overall Federal 
bioterrorism response effort.
    The fifth priority area addresses communication system 
needs. In the event of an intentional release of a biological 
agent, rapid and secure communications within the public health 
system will be especially crucial to ensure a prompt and 
coordinated response. CDC is building the Nation's public 
health communications infrastructure through the Health Alert 
Network. CDC has been addressing these priorities as part of 
its bioterrorism preparedness efforts.
    The issues that emerged from the recent Dark Winter 
exercise reflected similar themes that need to be addressed. 
For example, the exercise highlighted the importance of working 
with and through the Governors' offices as part of planning and 
response efforts. It was also clear that preexisting guidance 
regarding strategic use of limited smallpox vaccine stocks in 
high risk persons would have accelerated the response.
    It was evident that effective communications with the media 
and the public during such an emergency will be crucial. CDC 
will continue to work with partners to address challenges in 
public health preparedness, including those raised at Dark 
Winter. For example, work done by CDC staff to model the 
effects of control measures such as quarantine and vaccination 
in a smallpox outbreak have indicated that both public health 
measures are important.
    In summary, the best public health strategy to protect the 
health of civilians against biological terrorism is the 
development, organization and strengthening of public health 
surveillance and prevention systems and tools. Not only will 
this approach ensure that we are prepared for deliberate 
bioterrorist attacks, but it will also improve our national 
capacity to promptly detect and control naturally occurring new 
or reemerging infectious diseases. A strong and flexible public 
health system is the best defense against any disease outbreak.
    Thank you very much for your attention. Dr. LeDuc and I 
will be happy to answer any questions later.
    [The prepared statement of Mr. Hughes follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.063
    
    [GRAPHIC] [TIFF OMITTED] 81593.064
    
    [GRAPHIC] [TIFF OMITTED] 81593.065
    
    [GRAPHIC] [TIFF OMITTED] 81593.066
    
    [GRAPHIC] [TIFF OMITTED] 81593.067
    
    [GRAPHIC] [TIFF OMITTED] 81593.068
    
    [GRAPHIC] [TIFF OMITTED] 81593.069
    
    [GRAPHIC] [TIFF OMITTED] 81593.070
    
    [GRAPHIC] [TIFF OMITTED] 81593.071
    
    [GRAPHIC] [TIFF OMITTED] 81593.072
    
    [GRAPHIC] [TIFF OMITTED] 81593.073
    
    [GRAPHIC] [TIFF OMITTED] 81593.074
    
    [GRAPHIC] [TIFF OMITTED] 81593.075
    
    [GRAPHIC] [TIFF OMITTED] 81593.076
    
    [GRAPHIC] [TIFF OMITTED] 81593.077
    
    Mr. Shays. Dr. LeDuc, I think I sometimes rename you every 
time I say your name. I am sorry.
    Dr. Quinlisk.
    Dr. Quinlisk. Thank you.
    Mr. Shays. I hate to tell you, but the only way that I am 
going remember that name--never mind.
    Dr. Quinlisk. Don't feel bad, almost everyone has trouble 
with it.
    I am very honored to appear before the subcommittee today. 
The comments I will be providing are from the perspective of a 
State public health official. I would like to begin with the 
concluding points of my written statement.
    No. 1, public health needs to be seen as a major player and 
as having expertise and as needing therefore to control some 
aspects of bioterrorism preparedness response. Thus, public 
health needs to be at the table.
    Two, the detection of disease, laboratory identification, 
investigation of outbreaks, response and rapid secure 
communications are all critical but underresourced. These 
systems are all multi-use and once installed will be used daily 
for more common situations as well as preparing us to respond 
to deliberate acts.
    Allied fields such as a laboratory, veterinary, medical and 
mental health fields need to be assessed and their appropriate 
involvement addressed. Communications are critical between 
public health entities with other emergency response agencies 
and with the public.
    I have been asked to address some of the public health 
issued identified during the Dark Winter exercise. Even though 
I was not part of Dark Winter, I have talked with people who 
were and have been part of similar exercises in the past.
    Public health issues that have become apparent during these 
events include issues surrounding legal authorities and 
abilities, communication with other public health entities, 
emergency officials and the public and coordination with the 
others who are involved in the emergency response.
    Legal issues include those surrounding quarantine, both at 
the individual and at the community level. Under what authority 
is it instituted? If different States implement quarantine 
differently, does the Federal Government arbitrate such issues 
as who is allowed to break the quarantine?
    Also in these days of foot-and-mouth disease, we need to 
consider animal and agricultural quarantine.
    Communications and coordination concerns arise because, in 
part, public health has only been a minor player in the past. 
For example, I understand that during Dark Winter there was an 
early request for the number of people who had been exposed to 
smallpox when public health officials were just beginning their 
investigation and had not yet determined this.
    I have also found that during these exercises when medical 
and scientific information is requested, it is often delivered 
in a context not easily understood or used by those nonmedical 
people in command. Coordination and communication between these 
groups is improving, but I believe we have a long way to go.
    With regard to State-Federal interaction, those of us who 
are working in bioterrorism in the States, our main Federal 
partner is the Centers for Disease Control and Prevention, the 
CDC. Almost all Federal funding to the State public health 
preparedness comes through the Centers for Disease Control. 
Also the CDC provides guidelines, training, communication and 
laboratory support.
    Very little contact or support comes from any other Federal 
agency. Within the last few years, great progress has been made 
to create State-to-Federal secure communications and alert 
systems such as EPIX and the Health Alert Network. Electronic 
reporting of cases of disease from States to CDC is also 
improving through the recent and ongoing implementation of the 
National Electronic Disease Surveillance System, but these 
systems need to be expanded to ensure the communications can be 
timely, effective and secure.
    Even with rapid electronic reporting and analysis of 
disease occurrence, public health still relies heavily on the 
medical community to tell us what they are seeing. However, 
this means public health must become more visible and better 
linked to the medical community. I believe the communications 
between all responders and with the public will be a major 
issue in any terrorist event.
    As stated by CDC's guidelines, effective communications 
with the public through the news media will be essential to 
limit the terrorist's ability to induce panic and disrupt daily 
life.
    Many of us in public health are concerned not only about 
the health impact of these diseases themselves, but of the 
psychological impacts, both during and after an event. In my 
opinion, mental health experts need to be at the table during 
exercises and incorporated into State and Federal emergency 
plans.
    Within the public health system, the laboratory is 
critical. Public health laboratories must be able to quickly 
identify or rule out any organisms potentially involved and to 
communicate those results to the appropriate medical and public 
health authorities.
    Federal funding being distributed by CDC is helping to 
address these issues, but again more needs to be done. Also 
veterinary laboratories need to be integrated into the 
bioterrorism surveillance system.
    As a member of the Gilmore Commission, I have been asked to 
comment on its findings and recommendations. One of its major 
recommendations is the need to focus more on the higher-
probability, lower-consequence situations rather than the 
lower-probability, higher-consequence ones. This results in 
more focus at the State and local preparedness level.
    Finally, I would like to state that continuing to build 
toward a robust, comprehensive public health system, we will be 
building a multi-use system that will be used for more common 
diseases and situations every day. Thus, when a terrorist event 
occurs the system will be well-tested, effective and familiar 
to those who are involved.
    Thank you for the opportunity to provide testimony to you 
on this very important matter. I will be pleased to answer any 
questions.
    [The prepared statement of Dr. Quinlisk follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.078
    
    [GRAPHIC] [TIFF OMITTED] 81593.079
    
    [GRAPHIC] [TIFF OMITTED] 81593.080
    
    [GRAPHIC] [TIFF OMITTED] 81593.081
    
    [GRAPHIC] [TIFF OMITTED] 81593.082
    
    [GRAPHIC] [TIFF OMITTED] 81593.083
    
    [GRAPHIC] [TIFF OMITTED] 81593.084
    
    [GRAPHIC] [TIFF OMITTED] 81593.085
    
    Mr. Shays. Thank you, Dr. Quinlisk.
    Dr. Duchin.
    Dr. Duchin. Good afternoon, Mr. Chairman, members of the 
committee. Thank you for this opportunity to speak on the role 
of public health professionals in responding to a biological 
weapons attack. Because the initial detection of a biological 
weapons attack will occur at the local level, a primary role 
for public health is the detection and investigation of 
illnesses compatible with a biological weapons attack.
    Once a potential biological attack is detected, a public 
health investigation would follow to confirm the event. In a 
suspected or confirmed biological attack, public health 
professionals must determine the location and magnitude of the 
problem, identify the exposed population in order to target 
prevention and treatment, and monitor the extent of the 
outbreak.
    In order to limit the spread of disease in the population, 
public health investigators must identify for treatment or 
quarantine persons exposed to biological agent.
    Currently, many public health agencies are functioning with 
the minimum amount of staff required to perform routine day-to-
day operations with little reserve capacity to respond to 
naturally occurring communicable disease outbreaks of modest 
scope.
    An effective response to a biological weapons attack 
requires a strong public health capacity at the local and State 
level, including advanced surveillance system architecture and 
information management technology. Improvements in surveillance 
and information systems are necessary to improve communications 
between health departments and hospitals, laboratories, 
emergency management and emergency medical systems.
    For example, local public health professionals were 
concerned that our usual surveillance system would not rapidly 
detect a biological weapons attack during the 1999 World Trade 
Organization Ministerial Conference in Seattle.
    Current disease surveillance relies on reports of 
laboratory confirmed diseases submitted from health care 
providers and laboratories, with a time delay associated with 
both the identification of the agent of disease and the 
processing of reports.
    To enhance our ability to detect a potential biological 
weapons attack, assistance was requested from the Centers for 
Disease Control and Prevention for design and staffing of a 
special syndromic surveillance system that once implemented the 
enhanced surveillance system allowed us to monitor clinical 
visits to area emergency departments on an around-the-clock 
basis.
    After the conference, the enhanced surveillance system was 
dismantled. Ongoing optimal detection of potential biological 
weapons attacks will require sustainable improvements in 
surveillance systems architecture and methods.
    The second major role for local public health professionals 
is to facilitate the medical response to a biological weapons 
attack. This includes assuring evaluation, treatment, and 
preventive measures for the exposed population, including 
possible mass vaccination and delivery of appropriate resources 
to local health care facilities.
    The first responders in the event of a biological weapons 
attack will be health care professionals in hospitals and 
emergency departments and public health departments, not the 
traditional first responders such as firefighters and law 
enforcement.
    Local medical systems will be rapidly overwhelmed with the 
response to a biological weapons attack. The ability of health 
care institutions to respond to unanticipated increases in the 
numbers of patients with communicable diseases associated with 
even a relatively small naturally occurring outbreak is 
limited.
    Prioritization of the delivery of Federal resources is 
needed to effectively engage health care facilities and medical 
professionals with public health departments in planning and 
response activities for a biological weapons attack.
    A third key role of public health is to provide accurate, 
reliable information to local, State and Federal agencies, 
medical professionals and political leaders and the public.
    In summary, public health professionals, along with local 
health care institutions and medical professionals are the 
front line responders to a biological weapons attack. Key roles 
for public health include detecting, describing and monitoring 
the course of a biological weapons attack, assuring an adequate 
community-wide medical response and providing needed 
information and effective communication to all parties involved 
in response activities and the public.
    Improvements in our ability to effectively respond to a 
biological weapons attack are needed and can be achieved by 
strengthening public health surveillance and epidemiological 
capacity and through enhancing information and communication 
systems at the local and State level. Effectively engaging the 
medical community in biological weapons response planning 
should be given high priority.
    Thank you for the opportunity to testify today.
    [The prepared statement of Dr. Duchin follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.086
    
    [GRAPHIC] [TIFF OMITTED] 81593.087
    
    [GRAPHIC] [TIFF OMITTED] 81593.088
    
    [GRAPHIC] [TIFF OMITTED] 81593.089
    
    Mr. Gilman. Mr. Chairman.
    Mr. Shays. First, let me just thank Dr. Duchin and all of 
the panelists.
    Yes, Mr. Gilman.
    Mr. Gilman. If I might just interrupt. I regret the 
interruption, but I did want to introduce a group that you and 
I have both met with earlier today. These are graduate students 
from NYU Wagner School, Graduate School of Public Service. They 
are in our back row here. They are from Japan, Taiwan, Peru, 
Mozambique, and they are here studying public 
administration,and I would like to welcome them to our 
committee.
    Mr. Shays. Thanks. I would like to welcome them. Some of 
them smiled when you said I addressed them. I hope to have the 
opportunity after this hearing to visit with them.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. Thank you. Well, in keeping with the desire to 
be able to spend some time and get this over, I only have a 
couple of brief questions.
    Dr. Duchin or Dr. Quinlisk, perhaps you can answer that. 
What would you assess the current training level of medical 
personnel, local medical personnel for identifying these types 
of incidents and for what they are, recognizing what they are 
and for setting a course of action immediately at the local 
level?
    Dr. Duchin. I'll take a crack at that. I am in addition to 
the communicable disease officer a physician on the faculty of 
the University of Washington in the Infectious Disease 
Department, and I can tell you that there is no formalized 
training currently for health care professionals in the medical 
field to recognize agents of biowarfare. We have tried to raise 
the awareness of health care providers, physicians and nurses 
in our community using public information, Intranet, 
newsletters and so on. But the key I think is that this needs 
to be institutionalized so that trainees receive this 
information as part of their formal medical education.
    Mr. Tierney. Would you focus that on training medical 
students as they come through school and on other medical 
personnel as they get retraining or take courses at that time, 
or would you separately, alternatively or in addition train 
health agents in different communities?
    Dr. Duchin. Did you say health agents?
    Mr. Tierney. Health agents.
    Dr. Duchin. I think it is all. You can't start too early. 
It is important to raise the awareness at the medical student 
level and to reinforce the message throughout the training 
period, as well as reach those who are out of training and 
currently in practice in the community with continuing 
education.
    Dr. Quinlisk. I would like to make another point there. We 
talk about identification of it, but the identification will do 
no good if it has not been reported to somebody, and one of the 
biggest problems that I see is not that somebody recognizes a 
disease but they remember to pick up the phone and tell someone 
about it. So I think there is two things there that we need to 
do training on.
    Mr. Tierney. To train them who to contact. That would be 
somebody at the CDC or something like that?
    Dr. Quinlisk. Usually the local health department would be 
the appropriate person to respond and then it goes up the 
ladder, and that communication works quite well. It is the 
getting from the health care practitioner into the public 
health system where I think the biggest barrier is.
    Mr. Tierney. How important do you think it is that people 
within the health profession, probably the health departments 
of these areas, learn to deal with the media in a situation 
like this? I can see where a situation gets totally out of hand 
because somebody is inexperienced dealing with the media, 
because they are going to come down like locusts once there is 
any hint of this type of information. And how would you 
recommend that we deal with that issue?
    Dr. Quinlisk. I can speak a little bit about--the scenario 
that I think would be best when dealing with any kind of either 
potential bioterrorist or outbreak of any kind is do whatever 
you need to do to make sure that all of the messages are 
consistent, that they are very clear and they are presented to 
the public in language that they can understand.
    What I would envision in something like this would be the 
Governor standing in front of the microphones with the 
appropriate people behind him or her to then step up to the 
microphone when appropriate questions were asked.
    That way everybody in that room, every message going out to 
the media is consistent and clear. I think you do great damage 
to public confidence if you start giving conflicting 
information that is not clear.
    Mr. Tierney. Thank you very much.
    Mr. Shays. I thank the gentleman. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I regret that I was 
with our graduate students in the outer room, and I just have 
one major question.
    We addressed the last panel with this question. Since it is 
a troubling issue, and since we have done very little in 
preparation for it, let me ask this panel. Who do you think 
would be the best comprehensive agency to handle this matter in 
our Federal Government structure, and to be effective? I ask 
that to the whole panel. General.
    General Harrison. Yes, sir. I would be glad to take that 
one on. I heard the other panel. And I believe that FEMA, in 
the configuration that has been proposed, certainly has a lot 
to offer there, and I would say that for a couple of reasons.
    One, the operation of FEMA in the last 8 or 10 years, 
particularly since Hurricane Andrew, where we had a lot of 
difficulty of coordination of State agencies and Federal 
agencies, has come a long way.
    I think that the fact that they are organized already into 
emergency support functions at the Federal level to coordinate 
agencies of the Federal Government, and that most States are 
now organized in a like manner, emergency support functions in 
the State that will track what FEMA does, as they coordinate 
Federal and State agencies together, really lends a lot of 
credibility to FEMA having this kind of organization that is 
already in play.
    Perhaps there are better models. But for right now, to 
start today, I would envision, because of the emergency support 
functions, this would be the best.
    Mr. Gilman. They would need a lot of training on this 
issue, I take it?
    General Harrison. They would, sir. But I believe that there 
is a model that is still good for this. The catastrophic 
emergencies that have been had, where the coordination is still 
required, it may not be the same requirements in terms of 
chemical or biological warfare, or chemical or biological 
incident. But the model is still the same and the coordination 
is going to be the same, and things are in place today to do 
that.
    Mr. Gilman. General, did you have something further to add?
    General Cugno. Yes, sir, I do. I, too, would agree with 
FEMA. Recently with the establishment of the Office of National 
Preparedness I think it is a move in the right track within 
FEMA.
    Second, I think there is a proven track record of the 
Federal response plan. I think we have organizations like the 
Adjutant Generals Association, the National Guard Association, 
the National Emergency Management Association that would 
support that, with a central organization to deal with the 
consequences.
    And I am not suggesting the law enforcement crisis side of 
this, but simply the consequence side of it. It is a familiar 
program, practice, programmed and resourced.
    To answer the second part of your question, with the 
training, I think part of the requirements of the future deal 
with the training aspects and resources necessary for training.
    On the previous panel there was a gentleman here that 
mentioned the sirens and whistles and bells at the first 
responder's portion. I think that there is some truth to that. 
We are talking about the strategic level of planning at the 
national level. It has got great impact on what States could 
expect and how they would report. So FEMA is the answer as far 
as we are concerned.
    Mr. Gilman. Before leaving our two Generals, has the 
military engaged in preparation for biological warfare and 
chemical warfare, in preparation for our national defense?
    General Harrison. Yes, sir. I speak for the military as 
from the National Guard perspective. We are, and I know that 
you know the civil support teams are engaged in this, in most 
States. Not most States yet, but 10 States, I think there are 
now more than 20, that are engaged in this with civil support 
teams and are in training for this.
    In addition to that, I think the majority of the States 
would like to or are doing planning for their contingencies in 
case something were to happen in their major metropolitan 
areas, and certainly we are in Florida, and I think that most 
of them are anticipating a contingency.
    Mr. Gilman. How about Connecticut, General Cugno?
    General Cugno. Yes. I think from the basic standpoint of 
soldiering skills, you would also find that chemical, 
biological and radiological training remains a basic core part 
of every soldier that jumps into uniform. That is not unique in 
Connecticut, that is part of the Department of Defense 
requirements for the basics of soldiering skills.
    Mr. Gilman. Dr. Hughes.
    Mr. Hughes. Yes, I agree also with FEMA in the leadership 
role. We in public health have a long history of working with 
FEMA in the context of their response to natural disasters to 
help them deal with infectious disease issues that inevitably 
arise, And I would see us continuing to do that in this area of 
bioterrorism by providing expertise and advice and diagnostic 
patient management and treatment.
    Mr. Gilman. Dr. LeDuc.
    Dr. LeDuc. Yes, sir. I agree with Dr. Hughes.
    Mr. Shays. Good thing.
    Mr. Gilman. Dr. Quinlisk.
    Dr. Quinlisk. I think what I would rather do is address 
whoever it is that is put into authority over this issue. One 
of the things that I would want to make sure that they are very 
aware of is it not going to be business as usual. Biological 
attacks act very, very differently than a hurricane, an 
explosion, a chemical spill. And whoever it is that deals with 
it has got to understand that and not think, oh, I can rely on 
my old methods, the usual way of doing things, and that is 
going to be good enough, because it is not.
    Mr. Gilman. Thank you. Dr. Duchin.
    Dr. Duchin. I agree with the previous panelists that if 
FEMA does take over this role, they will need to work closely 
with HHS and others who have expertise in the management of 
biological issues.
    Mr. Gilman. I thank our panelists. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    When I was listening to you, General Harrison, it seemed to 
me that you were making a strong statement for the role of the 
Guard in homeland defense. And, General Cugno, I heard from you 
that joint exercises to, quote-unquote, fight as we train are 
absolutely essential. That was one of the key points I heard 
from you.
    And, Dr. Hughes, that surveillance and communication are 
absolutely vital.
    Dr. Quinlisk, I heard from you something that surprises me 
in a way because it seems like we wouldn't have to say it, but 
it is the sad fact that you were saying that public health is a 
key player and should be at the table. And it is like, you 
know, what does it take? Do we need to slap ourselves around 
here? You are clearly an essential role here. You are going to 
hopefully make the bomb harmless ultimately.
    And Dr. Duchin, the message I heard from you is that State 
health care needs help, money and training, and that was kind 
of the message that I was hearing from all of you.
    I then said, you know, well, you all are first line 
defenders. But I thought, where are the police, the fire, and 
so on? When I was asking the staff why both of you, you know, 
the military and the health care, why not all of the others, 
they may want to jump in because I may not have heard them 
correctly, but basically that your roles are still unclear to 
some, and that they need to be. Obviously, you know, the police 
are just going to respond. I mean they are going to respond.
    And so the reason, at least from my staff's standpoint, is 
that central roles of both the military and health, but truly 
trying to see how you fit in when you have to take charge over 
local activities and so on, and so in that perspective is a 
little clearer to me why this panel is comprised the way that 
we are.
    General Harrison, your office recently produced what my 
staff says is a very--they don't pass this out lightly--a very 
thoughtful analysis of national security roles for the National 
Guard, and I would like you to describe the issues you raised 
and the recommendations that were made in here. I want to give 
you an opportunity to just briefly talk about this if you would 
like. And if I could, I would just ask unanimous consent that 
this white paper, National Security Roles for the National 
Guard, by Colonel Michael Flemming and Chief Warrant Officer 
Candace L. Graves be introduced into the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81593.090
    
    [GRAPHIC] [TIFF OMITTED] 81593.091
    
    [GRAPHIC] [TIFF OMITTED] 81593.092
    
    [GRAPHIC] [TIFF OMITTED] 81593.093
    
    [GRAPHIC] [TIFF OMITTED] 81593.094
    
    [GRAPHIC] [TIFF OMITTED] 81593.095
    
    [GRAPHIC] [TIFF OMITTED] 81593.096
    
    [GRAPHIC] [TIFF OMITTED] 81593.097
    
    [GRAPHIC] [TIFF OMITTED] 81593.098
    
    [GRAPHIC] [TIFF OMITTED] 81593.099
    
    [GRAPHIC] [TIFF OMITTED] 81593.100
    
    [GRAPHIC] [TIFF OMITTED] 81593.101
    
    [GRAPHIC] [TIFF OMITTED] 81593.102
    
    [GRAPHIC] [TIFF OMITTED] 81593.103
    
    [GRAPHIC] [TIFF OMITTED] 81593.104
    
    [GRAPHIC] [TIFF OMITTED] 81593.105
    
    [GRAPHIC] [TIFF OMITTED] 81593.106
    
    [GRAPHIC] [TIFF OMITTED] 81593.107
    
    [GRAPHIC] [TIFF OMITTED] 81593.108
    
    [GRAPHIC] [TIFF OMITTED] 81593.109
    
    [GRAPHIC] [TIFF OMITTED] 81593.110
    
    [GRAPHIC] [TIFF OMITTED] 81593.111
    
    [GRAPHIC] [TIFF OMITTED] 81593.112
    
    [GRAPHIC] [TIFF OMITTED] 81593.113
    
    [GRAPHIC] [TIFF OMITTED] 81593.114
    
    [GRAPHIC] [TIFF OMITTED] 81593.115
    
    [GRAPHIC] [TIFF OMITTED] 81593.116
    
    [GRAPHIC] [TIFF OMITTED] 81593.117
    
    [GRAPHIC] [TIFF OMITTED] 81593.118
    
    [GRAPHIC] [TIFF OMITTED] 81593.119
    
    [GRAPHIC] [TIFF OMITTED] 81593.120
    
    [GRAPHIC] [TIFF OMITTED] 81593.121
    
    [GRAPHIC] [TIFF OMITTED] 81593.122
    
    [GRAPHIC] [TIFF OMITTED] 81593.123
    
    [GRAPHIC] [TIFF OMITTED] 81593.124
    
    [GRAPHIC] [TIFF OMITTED] 81593.125
    
    [GRAPHIC] [TIFF OMITTED] 81593.126
    
    [GRAPHIC] [TIFF OMITTED] 81593.127
    
    [GRAPHIC] [TIFF OMITTED] 81593.128
    
    [GRAPHIC] [TIFF OMITTED] 81593.129
    
    [GRAPHIC] [TIFF OMITTED] 81593.130
    
    [GRAPHIC] [TIFF OMITTED] 81593.131
    
    [GRAPHIC] [TIFF OMITTED] 81593.132
    
    [GRAPHIC] [TIFF OMITTED] 81593.133
    
    [GRAPHIC] [TIFF OMITTED] 81593.134
    
    Mr. Shays. I just want you to know that our staff thought 
that they did a very thoughtful job. Just give you an 
opportunity to mention it.
    General Harrison. Thank you, sir.
    Mr. Shays. Would you like to make any comment about this 
report?
    General Harrison. I would. I think that as a State we felt 
like we needed to come to grips with what we had been talking 
about and putting on paper regarding the response that we would 
give to any weapons of mass destruction or biological, chemical 
or radiological or certainly bombing.
    But to really look at biological particularly, how would we 
do that, and what is different than we--that the doctor just 
mentioned, that is certainly different than what we would do 
with a natural disaster in many cases, in most cases. We put 
that together, realizing though that the model that we use for 
a catastrophic event still has some basis for us to begin our 
work, very hard to train for some of these biological incidents 
in the field, and recognizing that they can go beyond State 
lines, and we would have a lot more coordination to do. And it 
raises to--it escalates to a Federal level.
    The key points of our paper were this: That the National 
Guard is in support of our local authorities, working under the 
Governor's plan. That may escalate beyond that, but initially 
we are going to be tasked with supporting the local authorities 
under the direction of the Governor.
    And many times people feel like the Guard is only in the 
law enforcement area, and we get into posse comitatus and all 
of the other things. And I would like to tell the committee, 
the subcommittee, that I was the Adjutant General when we had 
Hurricane Andrew, a totally different perspective than we would 
have in most natural disasters. But when we did that, the 
Florida National Guard stayed on active duty under the 
Governor, and the Federal response from the military brought 
23,000 Federal military into the State. And it worked because 
we all worked under the Governor's plan and tried to do what 
the Governor thought was the right thing to do in his State.
    And that is for me the key. And it is not all--and our 
paper was trying to describe that--it is not all law 
enforcement. There are a whole lot of things that the Federal 
military can do when they come in to help us or the Reserve and 
other State Guards besides worrying about the security: Food 
delivery and recovery of contaminated areas and testing of 
water and water purification. And there are just a whole lot of 
these, shelter management and search and rescue, language 
support, and the list goes on.
    So I think it is instructive for us to recognize that there 
are a lot of things that the Federal military and the State 
military can do, but is it all done under the direction of the 
Governor's plan and what he needs to get accomplished. That 
would be a very quick summary, sir, of our paper.
    Mr. Shays. Thank you.
    General Cugno, what do you see--first, let me say to you, I 
appreciated that the Connecticut Department of Emergency 
Management helped the Table Talk Exercise in the Greater 
Bridgeport Area. We did a chemical--basically an attack on an 
Amtrak train and what happened to the first responders and all 
of the challenges that we encountered, and health care showed 
up right away, because everybody had all of this fancy 
equipment and health care providers had a black telephone.
    You know, it is like weird, the difference. And you--and I 
think health care providers are in my judgment the stepchild 
here. I mean, they just would know that--no reflection on step-
children actually--but not given the attention that they need.
    So I thank you for being part of that funding, but what do 
you see are the advantages of a State Adjutant General also 
exercising control over the emergency management functions?
    General Cugno. Clearly I see a great advantage, at least in 
our State, having experienced both sides of this. We 
reorganized on July 1, 1999, where the Adjutant General became 
the responsible agent for the Office of Emergency Management.
    Mr. Shays. Was that a State----
    General Cugno. Yes, sir. It was legislated and signed into 
law by Governor Rowland. It was based upon--there had been a 
move across the country. I think there were some that were 
going to that. It provided the resources in our particular case 
in one building, close proximity to the Capitol. But it also 
gave all of the emergency operations that had been previously 
put together by the Military Department a clear focus on a 
direction that the Governor was looking to go, and it was to 
minimize time and maximize resources to affected areas as 
quickly as we possibly could.
    Our experience with the FEMA folks was incredible, and it's 
worked quite well. I am very comfortable with it. The Governor 
is very comfortable with it. And we find that in emergency 
operations such as this, we're able to interact with the Fed 
side because of the existing Federal response plan, where there 
is a Federal coordinating official, there's a State 
coordinating official, and those are designated individuals. 
Additionally, there are liaison people from other branches of 
the service.
    There are parts that are missing that still require 
attention, and the Adjutant General's Association is clearly 
aware of them and has worked to this end. Part of it is under 
the new program mandated by the President with the National 
Preparedness Office's part of the FEMA, how that will integrate 
with the States and how it will integrate also when resources 
are deployed from the Commanding General of civil support, 
General Lawlers' forces, when they come into a State and how 
they'll be--whether the State is currently under the control of 
Emergency Management by the Adjutant General or by a stand-
alone agency, how it will integrate Federal resources, how it 
will integrate the Commanding General's forces and other 
resources that he brings with it, whether active component or 
reserve component.
    The National Guard Bureau, we believe that's not part of 
the State but part of the Federal entity in Washington here at 
the Readiness Center and at the Pentagon.
    One of the reasons I had asked General Reese--and discussed 
it with him--to come is that at some point, if the Congress 
would like, we are prepared to provide to the Congress--it's a 
one-page brief sheet, and it follows a model that Congress has 
authorized in the counterdrug program on how we take this 
complex issue of Federal rights, State rights and resources, 
and come up with suggestions to better minimize overhead, 
minimize bureaucracies, and get resources to the front. We're 
prepared to do that when you'd like.
    Mr. Shays. Thank you, General.
    Dr. Hughes, the--I'd like to know what is being done to 
improve the electronic reporting of disease between local and 
State governments and between States and the Federal 
Government. Let me just preface it by saying what became very 
clear to us early on when we started to do this work on 
biological threat, pathogens and so on, is that particularly in 
our larger cities, we are continuing monitoring to see if there 
is an outbreak of both natural causes or man-made, and so how 
we report this information, the fact that we report it and so 
on, is I think obviously of key interest. Maybe you could 
respond to it.
    Dr. Hughes. Thank you very much for asking that. It's a 
very important question, and I think Dr. Duchin and Dr. 
Quinlisk would like to add something to what I have to say too. 
But to digress for a moment----
    Mr. Shays. You may digress.
    Dr. Hughes [continuing]. Let me point out that in a Dark 
Winter scenario, you don't want to rely on electronic reporting 
to pick that up. It's absolutely critical there that you have 
the alert health care provider who's trained and prepared--you 
want to recognize that first case. You don't want to, as in the 
scenario, after there are 20 or 30, somebody figures out that 
something's going on. You have to get the first case and that 
will require more conventional but rapid communication.
    Mr. Shays. But it's been in the incubator for 8 or 9 days; 
in other words, the disease hit over a week before.
    Dr. Hughes. I'm sorry?
    Mr. Shays. The disease hit over a week before in terms of 
smallpox.
    Dr. Hughes. The exposure--yes, that's--when you think about 
infectious diseases, as you know, we have this period called 
the incubation period from onset----
    Mr. Shays. That will vary depending on the disease?
    Dr. Hughes. It will vary depending upon the disease, and 
for smallpox it's typically 10, 12, 14 days. If you have a 
common exposure, as I suspect was the case in Dark Winter, you 
want to get that case. You want to get it confirmed. You want 
to alert the health care community to the fact that they see 
additional cases, and that's where some of the electronic 
notification can come in.
    Mr. Shays. But that first case isn't necessarily the first 
hit. I mean the incubation could be different.
    Dr. Hughes. True.
    Mr. Shays. So that person could end up being in a town that 
wasn't where they were exposed.
    Dr. Hughes. Yes, exactly. But you want--you want a health 
care provider who sees somebody who's sick with a febrile 
illness that's beginning to develop with a rash, you want 
them--in the current climate, you want them to be sensitized to 
the fact that this could possibly be something very bad and 
they need to then move rapidly to ensure that confirmatory 
diagnosis takes place.
    That was one thing that I was happy to hear occurred in 
Dark Winter, but you should not take that for granted, the 
recognition, the notification, the shipment of specimens, the 
receipt by people who are trained, who have containment 
facilities they can work in and modern molecular tests that 
they can do.
    So all of that is absolutely critical, but you want to get 
that first case, so when you get a second or third case, you 
then go back and get, as Dr. Hamburg had said, you get the 
histories and you see what these people had in common so that 
you get that exposure, that common exposure nailed down right 
away.
    I think you could see how that might have helped in the 
management of Dark Winter. It might not have, but I would argue 
that it probably would have.
    Now, electronic surveillance and notification, it needs to 
go both ways from local to State to Federal and back. There are 
efforts currently around, what we call the National Electronic 
Disease Surveillance System, a standardized approach to 
surveillance of infectious diseases and other diseases 
occurring in the United States that we are making an investment 
in. There's a tremendous amount of work that needs to be done 
to make this a reality, however.
    The other piece of this was alluded to by one or two of the 
previous speakers, and that is a system that's now in place 
called EPIX that would be extremely valuable I think in a Dark 
Winter-like scenario. This is a secure communication network 
linking us at CDC with Dr. Quinlisk and her colleagues at the 
State level, and Dr. Duchin and colleagues at the local public 
health level, where information or late--just breaking 
information on outbreak scenarios can be rapidly shared in a 
secure manner with people who need to know about it.
    So a lot of work needs to be done there. It's critically 
important.
    Mr. Shays. I saw a nodding of the head, Dr. Quinlisk. Did 
you want to say anything or just report that you nodded your 
head?
    Dr. Quinlisk. I would just second everything that Dr. 
Hughes said, and I think we're doing a very good job from the 
State to Federal level. Things are coming along, we're working 
on it.
    The biggest problem I see is from the local to the State 
level. We're still back 20 years ago in many States. In my own 
State, I still get our own public health laboratory reporting 
to me by pieces of paper they send through the mail.
    Mr. Shays. My staff said yikes. Is that what you said?
    OK. Let me kind of bring this panel and hearing to a close 
by just asking--I'm a little concerned. This is such an open-
ended question; so maybe you could be selective in what you 
would respond to, Dr. Quinlisk or Dr. Duchin. What constraints 
confront health care professionals to adequately prepare for 
catastrophic events? If you could just give me the key 
constraints.
    Dr. Duchin. I think, speaking as an ex-emergency department 
physician and a current practitioner in infectious diseases, I 
think resources, I think health care providers and health care 
institutions don't feel that they have the time to devote right 
now for preparing for this issue. They are constrained by their 
own financial needs.
    Mr. Shays. Financial needs, just the workload----
    Dr. Duchin. Their workload. They need to--their income. 
They need to see patients and take care of the bottom line, and 
I think what we're asking them to do is something--an unfunded 
mandate-type of issue where we're asking them to train for 
something that's new and different. We're asking them to learn 
a new body of knowledge, and then to integrate a system that's 
going to implement a response without giving them any resources 
with which to do that.
    Mr. Shays. I'm--you all didn't participate in the Dark 
Winter, but I'm just struck by the fact that we are woefully 
unprepared on the health side. I feel like the--there are lines 
of authority questions for our Adjutant Generals, but on the 
health care side it's just--it clearly, I think, of all the 
things that I've thought about today--I guess I've learned a 
lot, but I'm most concerned about startabilty, particularly in 
a case like smallpox, to just respond.
    Dr. Hughes, maybe you could just comment on the 
stockpiling, I mean the 12 million, for instance. Are we going 
to have to just really reassess our stockpiling issues?
    Dr. Hughes. Well, let me focus on just the smallpox vaccine 
component of the stockpiling, and Dr. LeDuc is much more 
familiar with the details of this than I and he will want to 
chip in here. There are actually about 15 million doses of 
vaccine available.
    Mr. Shays. How many?
    Dr. Hughes. About 15 million.
    Mr. Shays. Which isn't a lot.
    Dr. Hughes. No, it's not a lot. And we would like more and 
Dr. LeDuc can talk about some of the specifics in terms of how 
we're moving to have more produced.
    Mr. Shays. It lasts about 10 years, the vaccine?
    Dr. Hughes. Well, the shelf life is probably even greater 
than that. Let me just----
    Mr. Shays. I'd like you to respond, Dr. LeDuc, but what I'm 
being told is this is a vaccine that as long as the symptoms 
haven't appeared the vaccine has impact, but once the symptoms 
appear--but it can spread before the symptoms appear. No or 
yes?
    Dr. Hughes. No. No.
    Mr. Shays. So that's the good news in the sense--in other 
words, it's not being spread before the symptoms show up?
    Dr. Hughes. Right. Dr. Henderson, if he were here, would 
say from his experience which was extensive, obviously, 
administration of smallpox vaccine within 3 to 4 days after 
exposure would prevent illness.
    Mr. Shays. So the biggest incentive in this case would be 
just to give as many people the vaccine as possible?
    Dr. Hughes. But given the fact that we're always going to 
be constrained in the amount of vaccine available, you want to 
be sure you're targeting the vaccine to----
    Mr. Shays. Because we're under a scenario where we have 
limited supply. But I could even see a scenario where you would 
have a world supply and you'd ship it by Concord jet if you had 
to, but you'd get it quick.
    Dr. Hughes. Yes. And I think there are a lot of countries 
who would like that. But the current vaccine and the second 
generation, as was pointed out, does have some side effects. So 
you have to be cognizant that there is some risk----
    Mr. Shays. Well, all vaccines have side effects.
    Dr. Hughes. Yes, but smallpox vaccine probably more than 
others.
    Mr. Shays. We won't get to anthrax. We won't go there.
    Dr. Hughes. We don't have time.
    Mr. Shays. OK. Doctor.
    Dr. LeDuc. Thank you. Dr. Hughes asked me to come just to 
give you--be available for a brief update on the actual----
    Mr. Shays. He wanted moral support.
    Dr. LeDuc. Well, and I've done my best, although I feel a 
little bit like the party crasher in the middle of the table 
and not saying anything.
    Mr. Shays. My feeling is this. The one who speaks the least 
probably has more time to think about the answer. So I'm 
expecting a really good answer.
    Dr. LeDuc. Thank you for the added pressure. I think you're 
familiar with the contract in place. There are a couple of 
important issues. No. 1, this is a new vaccine from the 
regulatory perspective. It's a whole new manufacturing process. 
So there are going to be some hurdles to overcome, and we're 
already seeing some of those.
    No. 2, we have designed this contract so we have a 
sustained capacity to make the vaccine over a long period of 
time. The contract actually extends through the year 2020; so 
we have estimated a 5-year shelf life. We've projected 
replacing that. We've also projected that vaccine would 
accumulate so at the end of the 20 years we would produce a 
total of something like 160 million doses. The idea is to have 
40 million doses on hand as quickly as possible.
    To make a vaccine, this particular vaccine, there really 
are two parallel tracts that we have to follow. No. 1, just the 
nuts and bolts of how do you make that; and, No. 2, the 
regulatory side, does this vaccine do what we expect it to do 
in protecting people?
    On the nuts and bolts, making the vaccine, we are I think 
in very good shape. We begin vaccine lot production next month. 
That should be done in about 2 months, and that will be used 
for the initial safety trials.
    As soon as that production is finished, we will then begin 
making three full-scale manufacturing production lots, and that 
will be done toward the end of the next year, about October 
2002. At that time, we'll have the capacity to make the 
vaccine.
    Each lot is a little over 3 million doses. It's about 3.3 
or 3.4 million doses per lot. We can make roughly one of those 
per month, if pressed. We could scale up that. This is all 
limited, by and large, by equipment. If we wanted to double 
that, we'd just buy more equipment. We can do that.
    On the human side, proving that vaccine actually works, 
that will require formal testing. And we're working very 
closely with the FDA to set those tests up, and in fact we meet 
with them on August 15, next month, to have what's called a 
pre-IND meeting. This is the first formal meeting to tell them 
what we're going to do. We then hope to file the IND in October 
or so.
    As I mentioned, we'll go through the phase I safety trials. 
Those will start actually in December of this year and will 
take about 4 months to be completed. Then we'll go into the 
phase II and phase III safety and efficacy trials, and those 
will take about 3 years. They should be done in October 2003 
and then we'll file the licensing. So, early 2004 we should 
have the licensed product.
    Mr. Shays. Thank you. If you think it is an exercise 
without a need, then it becomes an exercise without a need. But 
if you think there is the real possibility that there could be 
an attack like this, every minute that you spend on this issue 
is extraordinarily valuable, and that's kind of where I come 
down.
    I just want to invite any of our witnesses to--any of you, 
to ask yourself a question that we should have asked, and 
answer it if you'd like to. Is there--otherwise we will just 
conclude there.
    General, is there a question that you wish we had asked or 
we should have asked?
    Mr. Harrison. Well, I would maybe just a reiteration, sir, 
part of what I have said. The reason that the National Guard is 
capable of doing what is needed to be done is because we're 
organized and trained and equipped and disciplined to do the 
warfighting anywhere in the world speaks clearly for me to the 
fact that this is a mission for us, but it is not the primary 
mission. We need to stay in the warfighting business to be able 
to do this as we do now.
    And the last is that it's very important that we recognize 
that Federalization of the National Guard is probably not the 
way to do things--I would never say never--but not the way to 
do things, and that the flexibility--and really I would say 
this. There's a synergistic effect. If and when the Federal 
military has to come in and work and the State National Guard 
is still on State active duty, there's a synergy that is 
created to really get more work because of the missions.
    Mr. Shays. I should have made that point. That point came 
through loud and clear, and I think it needed to be emphasized, 
and I thank you for that.
    Dr. Harrison. Thank you, sir.
    Mr. Shays. Major Cugno. General. Gosh, I don't--I'm a bad 
speller. I see MG and I think Major. I know it's MG but----
    General Cugno. Sir, the only thing I would like to leave 
you with is in every State there's an emergency plan, the 
Governor is actively involved with it. That emergency plan is 
existing, it's practiced. Regardless of what the catastrophe 
is, the consequences of that catastrophe may have been planned 
for. It integrates law enforcement officials, medical 
facilities, medical assets and resources, in addition to the 
National Guard and the resources. In every State's compact, it 
gives the commander or Governor the ability to reach out and 
touch additional assets, future operations, plannings--and 
exercises at the Federal level have to recognize that.
    I think if not, we really don't get an accurate picture of 
what the consequences or abilities are of a State.
    Mr. Shays. Thank you, sir. Anybody else? Dr. Hughes or 
anybody else?
    Dr. Hughes. Well, I would say briefly in this context of 
bioterrorism, prevention is critical. If that fails, early 
detection and rapid response in a coordinated way is critical.
    And then I'd like to just end by acknowledging what a 
number of people pointed out in the previous panel. This lack 
of surge capacity is a critical issue whether we're dealing 
with naturally occurring disease, the annual influenza 
epidemic, let alone a flu pandemic on the one hand or a 
bioterrorism----
    Mr. Shays. That suggests government intervention to allow 
for that surge capability, doesn't it?
    Dr. Hughes. Pardon?
    Mr. Shays. It suggests government intervention to--
certainly the stockpiling would be at government expense.
    Dr. Hughes. Well, there's certainly a need for government 
leadership and investment, yes.
    Mr. Shays. Are you suggesting that there may be imaginative 
ways to--when you say surge capability, that tells me we need 
to have excess supply.
    Dr. Hughes. We have--no.
    Mr. Shays. No need to have extra supply, additional supply, 
that you wouldn't think you would need on a day-to-day basis?
    Dr. Hughes. Well, yes. I mean it comes up in the noncontext 
of the health care setting, just beds for patients. You know, 
each year there are hospitals that close during the influenza 
season. We're faced with shortages and delays in vaccines, as 
you know. We have shortages of some antibiotics, even including 
penicillin. Who could think that would happen in the United 
States?
    Sometimes we run into problems of shortages even with 
diagnostic tests. So that's the point.
    Mr. Shays. Anyone else?
    Dr. Quinlisk. I would just like to say thank you for 
bringing the issue of public health to this table. And I 
appreciate the opportunity to speak to you today, and I would 
just like to say that public health needs to be involved not 
only in biological terrorism, which seems to be the place we 
are seeing more often today, but not to forget chemical and 
radiological and other types of terrorism as well.
    Mr. Shays. Thank you.
    Dr. Duchin, I want to thank you. Evidently you appeared on 
very short notice when we had a cancellation, and it was 
thoughtful for you to participate and your contribution.
    Dr. Duchin. It was my pleasure to be here. Thank you.
    Mr. Shays. Thank you very much. You're all patient. It's 
nearly 6 o'clock and this committee learned a lot. Thank you 
for your participation. This hearing stands adjourned.
    [Whereupon, at 5:50 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
